No. 20In the

Supreme Court of the United States
Robert David Dupuch-Carron
and Elizabeth Joanna Carron,
Petitioners,
v.
Xavier Becerra, Secretary of
Health and Human Services,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

Curtis R. Webb
Counsel of Record
Law Office of Curtis R. Webb
7495 Westview Lane
P.O. Box 429
Monmouth, Oregon 97361
(541) 231-8971
crwebb@mindspring.com
Counsel for the Petitioners
301884

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1. Does the ordinary meaning of the words of section
11(c)(1)(B)(i)(III) of the National Childhood Vaccine Injury
Act (the NCVIA or “Vaccine Act”), 42 USC § 300aa-11(c)
(1)(B)(i)(III), require that a person who received a covered
vaccine outside of the United States be a resident of the
United States in order to be eligible to seek compensation
under that section of the Vaccine Act?
2. Does the ordinary meaning of the words in section
11(c)(1)(B)(i)(III) of the National Childhood Vaccine Injury
Act (the NCVIA or “Vaccine Act”), 42 USC § 300aa-11(c)
(1)(B)(i)(III), require that a person who received a covered
vaccine outside of the United States had been present in
the United States “While living and breathing outside of
his mother’s body” before receiving that vaccine in order
to satisfy Section 11(c)(1)(B)(i)(III)’s requirement that the
person “returned to the United States not later than six
months after the date of “ the vaccination received outside
of the United States?

ii
PARTIES TO THE PROCEEDING
The parties to this proceeding are:
Elizabeth Joanna Carron;
Robert David Dupuch-Carron;
and
Xavier Becerra, Secretary of Health and Human
Services.
Elizabeth Joanna Carron and Robert David DupuchCarron filed the National Childhood Vaccine Injury
Act claim that is the basis of this proceeding as the
legal representatives of their minor son, A.R.D-C., and
amended the caption of the case to reflect the fact that
they brought the claim as the legal representatives of the
estate of their minor son, A.R.D-C., after A.R.D-C’s death.
See 42 USC § 300aa-11(a)(1) and 42 USC § 300aa-15(a)(2).

iii
RELATED CASES
Dupuch-Carron v. Sec’y of Health and Human
Services, No. 17-vv-1551, U. S. Court of Federal Claims,
Office of Special Masters. Judgment entered September
13, 2019.
Dupuch-Carron v. Sec’y of Health and Human
Services, No. 17-vv-1551, U. S. Court of Federal Claims.
Judgment entered September 13, 2019.
Dupuch-Carron v. Sec’y of Health and Human
Services, No. 20-1137, U. S. Court of Appeals for the
Federal Circuit. Judgment entered August 11, 2020.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
CITATIONS OF THE OPINIONS ENTERED IN
	THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . . . . 2
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
1.

Facts Material to the Consideration of
the Questions Presented . . . . . . . . . . . . . . . . 5

2.

Basis for Federal Jurisdiction  . . . . . . . . . . . 7

REASONS FOR GRANTING THE WRIT OF
	CERTIORARI  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

v
Table of Contents
Page
I. The Ordinary Meaning of the Words of Section
11(c)(1)(B)(i)(III) of the NCVIA Does Not
Limit Access to the National Vaccine Injury
Compensation Program to Persons Who
Were Residents of the United States When
They Received a Covered Vaccine Outside
of the United States  . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. The NCVIA Defines the Conditions
Under Which a Person Who Receives a
Covered Vaccine Outside of the United
States Can Receive Compensation
Through the Act . . . . . . . . . . . . . . . . . . . . . . 11
B. The Cour t of Appeals’ Decision
Conflicts with This Court’s Decisions
in Bostock v. Clayton County and
Sebelius v. Cloer Because It Adds a
Residency Requirement to Section 11(c)
(1)(B)(i)(III) of the NCVIA . . . . . . . . . . . . . 13
1.

Bostock v. Clayton County  . . . . . . . . . 13

2. Sebelius v. Cloer  . . . . . . . . . . . . . . . . . . 15
II. The Ordinary Meaning of the Words of Section
11(c)(1)(B)(i)(III) of the NCVIA Does Not
Limit Access to the National Vaccine Injury
Compensation Program to Persons Who Had
Been Present in the United States “While
Living and Breathing Outside Their Mother’s
Body” Before They Received a Covered Vaccine
Outside of the United States . . . . . . . . . . . . . . . . . . . 18

vi
Table of Contents
Page
A. Section 11(c)(1)(B)(i)(III) Does Not
Limit the Kind of Pre-Vaccination
Presence in the United States that
Makes a Post-Vaccination Entry into
the United States a “Return” to the
United States  . . . . . . . . . . . . . . . . . . . . . . . . 19
B. The Primary Purposes of the NCVIA
Were to Stabilize the Market for
Childhood Vaccines and to Compensate
Persons Injured by Rare Vaccine
Related Injuries . . . . . . . . . . . . . . . . . . . . . . 20
C. T he C ou r t of A pp e a l s D e n i e d
A.R.D-C. and His Parents Access to
the NCVIA because A.R.D-C.’s PreVaccination Presence in the United
States Was as a Child Who Was In
Utero when His Mother Visited the
United States  . . . . . . . . . . . . . . . . . . . . . . . . 21
D. The Court of Appeals’ Interpretation of
Section 11(c)(1)(B)(i)(III) is Inconsistent
with the Ordinary Meaning of the Words
of the NCVIA . . . . . . . . . . . . . . . . . . . . . . . . 22
E. The Court of Appeals’ Interpretation of
Section 11(c)(1)(B)(i)(III) Undermines
the Primary Purposes of the NCVIA . . . . 23

vii
Table of Contents
Page
F.

The Court of Appeals’ Interpretation of
Section 11(c)(1)(B)(i)(III) Is Inconsistent
with Section 11(f) of the NCVIA
1.

T he mat er na l i m mu n i zat ion
provisions of the NCVIA recognize
ch i ld ren who were i n ut ero
when their mothers received a
vaccine as persons who received
a vaccine . . . . . . . . . . . . . . . . . . . . . . . . . 24

2. The court of appeals relied on the
maternal immunization provisions
of the NCVIA to deny A.R.D-C
access to the National Vaccine Injury
Compensation Program . . . . . . . . . . . . 25
3.

The court of appeals’ reliance on
Section 11(f) of the NCVIA and
1 USC § 8 to limit the access
of the NCVIA was inconsistent
w ith the plain lang uage and
purpose of Section 11(f) of the
NCVIA and 1 USC § 8 . . . . . . . . . . . . . 25

G. A .R.D - C. Was a “Person” W hen
He Received His June 2 3, 2 016
Vaccinations and When He Returned to
the United States for Medical Care on
July 13, 2016  . . . . . . . . . . . . . . . . . . . . . . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

viii
TABLE OF APPENDICES
Page
A p p e ndi x A — o p i n io n o f t h e
UNITED STATES COURT OF APPEALS
FO R THE FE D E R AL CI R CUIT ,
DATED AUGUST 11, 2020 . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE UNITED
STATES COURT OF FEDERAL CLAIMS,
FILED SEPTEMBER 10, 2019 . . . . . . . . . . . . . . . . 31a
APPE N DI X C — OPI N ION OF THE
UNITED STATES COURT OF FEDERAL
CLAIMS, FILED APRIL 23, 2019 . . . . . . . . . . . . . 50a
Appendix D — DENIAL OF REHEARING
of the united states court of
appeals FOR THE FEDERAL CIRCUIT,
DATED NOVEMBER 19, 2020 . . . . . . . . . . . . . . . . 78a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Atchison, Topeka, & Santa Fe Ry. Co, v Buell,
480 U.S. 557 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Bostock v. Clayton County,
___ U.S. ___, 140 S.Ct. 1731 (June 15, 2020) . . . passim
Bruesewitz v Wyeth, LLC,
562 U.S. 223 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . 21, 23
Burch v. Sec’y of Health & Hum. Servs.,
2010 U.S. Claims LEXIS 154, 2010 WL 1676767
(Fed. Cl. Spec. Mstr., April 9, 2010)  . . . . . . . . . . . . . 24
Cloer v. Sec’y of Health and Hum. Servs.,
675 F.3d 1358 (Fed. Cir. 2012) . . . . . . . . . . . . . . . 20, 21
Dupuch-Carron v. Sec’y of Health & Hum. Servs.,
144 Fed. Cl. 659 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 1
Dupuch-Carron v. Sec’y of Health & Hum. Servs.,
No. 17-1551V, 2019 WL 2263369, 2019 U.S.
Claims LEXIS 578 (Fed. Cl. Spec. Mstr.
Apr. 23, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Dupuch-Carron v. Sec’y of Health and Hum. Servs,
969 F.3d 1318 (Fed. Cir. 2020) . . . . . . . . . . . . . . passim

x
Cited Authorities
Page
Melton v. Sec’y of Health & Hum. Servs.,
2002 U.S. Claims LEXIS 385, 2002 WL 229781
(Fed. Cl. Spec. Mstr., July 3, 2002) . . . . . . . . . . . . . . 24
Rooks v. Sec’y of Health & Hum. Servs.,
35 Fed. Cl. 1 (January 29, 1996)  . . . . . . . . . . . . . . . . 24
Sebelius v. Cloer,
569 U.S. 369 (2013)  . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Other Authorities
1 USC § 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 27
1 USC § 8(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
1 USC § 8(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26, 28
28 USC § 1254(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 CFR § 100.3(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 USCS §§ 300aa-10 et seq. . . . . . . . . . . . . . . . . . . . . . . 26
42 USC § 300aa-11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 16
42 USC § 300aa-11(b)(1)(A) . . . . . . . . . . . . . . . . . . . . . . . 11
42 USC § 300aa-11(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

xi
Cited Authorities
Page
42 USC § 300aa-11(c)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . 4
42 USC § 300aa-11(c)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . 4
42 USC § 300aa-11(c)(1)(B)(i)(II)  . . . . . . . . . . . . . . . . . . 12
42 USC § 300aa-11(c)(1)(B)(i)(III) . . . . . . . . . . . . . . passim
42 USC § 300aa-11(f) . . . . . . . . . . . . . . . . . . . 24, 25, 26, 27
42 USC § 300aa-12(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 USC § 300aa-12(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 USC § 300aa-12(f) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 USC § 300aa-14(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 USC § 300aa-15(e)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 16
42 USC § 300aa-15(e)(1)(3) . . . . . . . . . . . . . . . . . . . . .  15, 16
H.R. Rep. No. 99-908, 99th Cong. 2d Sess. (Sept.
26, 1986) reprinted in 1986 U.S. Code Cong.
Admin. News 6344  . . . . . . . . . . . . . . . . . . . . . . . . 21, 23

1
PETITION FOR A WRIT OF CERTIORARI
Robert David Dupuch-Carron and Elizabeth Joanna
Carron respectfully petition for a writ of certiorari to
review the order of the United States Court of Appeals
for the Federal Circuit in this case.
CITATIONS OF THE OPINIONS
ENTERED IN THE CASE
1. The citation to the United States Court of Appeals
for the Federal Circuit’s Opinion is:
Dupuch-Carron v. Sec’y of Health and Hum.
Servs., 969 F.3d 1318 (Fed. Cir. 2020).
The Opinion of the United States Court of Appeals for
the Federal Circuit is Appendix A and is located at pages
1a through 30a of the Appendix.
2. The Order of the United States Court of Appeals
for the Federal Circuit denying the Petitions for Panel
Rehearing and Rehearing En Banc is unreported. It is
Appendix D and is located at pages 78a through 79a of
the Appendix.
3. The citation to the Memorandum Decision of Judge
Richard A. Hertling, of the United States Court of Federal
Claims, is:
Dupuch-Carron v. Sec’y of Health & Hum.
Servs., 144 Fed. Cl. 659 (2019).

2
The Memorandum Decision of Judge Richard A.
Hertling is Appendix B and is located at pages 31a through
49a of the Appendix.
4. The citation to the Decision of Special Master
Thomas L. Gowen, of the United States Court of Federal
Claims, Office of Special Masters, that dismissed the
Petitioners’ National Childhood Vaccine Injury Act claim
is:
Dupuch-Carron v. Sec’y of Health & Hum.
Servs., No. 17-1551V, 2019 WL 2263369, 2019
U.S. Claims LEXIS 578 (Fed. Cl. Spec. Mstr.
Apr. 23, 2019).
The Decision of Special Master Thomas L. Gowan in
Appendix C and is located at pages 50a through 77a of
the Appendix.
BASIS FOR JURISDICTION
The Petitioners ask the Court to review the Opinion
and Judgment entered by the United States Court of
Appeals for the Federal Circuit on August 11, 2020.
The Petitioners’ Petitions for Panel Rehearing and
Rehearing En Banc were denied by the United States
Court of Appeals for the Federal Circuit on November
19, 2020.
This Court’s March 19, 2020 order addressing the
public health concerns related to COVID-19 extended the
time within which a party may file a petition for writ of
certiorari to 150 days from the date of the lower court’s

3
judgment, order denying discretionary review, or order
denying a timely petition for rehearing.
The Petitioners believe that 28 USC § 1254(1) confers
the Court jurisdiction to review the Opinion and Judgment
entered in this case on a writ of certiorari.
STATUTORY PROVISIONS INVOLVED
The case involves section 11(c)(1)(B)(i)(III) of the
National Childhood Vaccine Injury Act (the NCVIA or
the “Vaccine Act”). 42 USC § 300aa-11(c)(1)(B)(i)(III). The
relevant provisions of the statute read:
(c) Petition content. A petition for compensation
under the Program for a vaccine-related injury
or death shall contain (1) except as provided in paragraph (3), an
affidavit, and supporting documentation,
demonstrating that the person who suffered
such injury or who died (A) received a vaccine set forth in the Vaccine
Injury Table or, if such person did not receive
such a vaccine, contracted polio, directly or
indirectly, from another person who received
an oral polio vaccine,
(B)
(i) if such person received a vaccine set forth in
the Vaccine Injury Table -

4
(I) received the vaccine in the United States or
in its trust territories,
(II) received the vaccine outside the United
States or a trust territory and at the time of
the vaccination such person was a citizen of the
United States serving abroad as a member of
the Armed Forces or otherwise as an employee
of the United States or a dependent of such a
citizen, or
(III) received the vaccine outside the United
States or a trust territory and the vaccine was
manufactured by a vaccine manufacturer
located in the United States and such person
returned to the United States not later than
6 months after the date of the vaccination.
(ii) if such person did not receive such a vaccine
but contracted polio from another person who
received an oral polio vaccine, was a citizen
of the United States or a dependent of such a
citizen, . . . .
42 USC §§ 300aa-11(c)(1)(A) and (B) (emphasis added).
STATEMENT OF THE CASE
This case presents the question of whether a child1
who receives a vaccination covered by the National
Childhood Vaccine Injury Act (the NCVIA or “Vaccine
1. Or the parents of a child who dies as a result of a vaccine
related injury.

5
Act”) is eligible to seek compensation through the National
Vaccine Injury Compensation Program under section
11(c)(1)(B)(i)(III) of the Act, 42 USC § 300aa-11(c)(1)(B)
(i)(III), if:
1) He was not a resident of the United States when he
received the vaccination outside of the United States; and
2) His only pre-vaccination presence in the United
States was as a child in utero when his mother visited
the United States.
The Petitioners’ son, A.R.D-C., developed a lifethreatening autoimmune disease of the blood, hemophagocytic lymphohistiocytosis (HLH), two weeks after
receiving eight vaccinations at his pediatrician’s clinic
in Nassau, The Bahamas, on July 23, 2016 and died as a
result of a complication to the treatment that he received
for that disease on December 24, 2017.
The Petitioners filed a claim for compensation through
the National Vaccine Injury Compensation Program, 42
USC § 300aa-11 et seq, on A.R.D-C.’s behalf while he was
alive and amended that claim to a claim for compensation
for A.R.D-C.’s death after his death.
1.

Facts Material to the Consideration of the
Questions Presented

A.R.D-C. was born in Nassau, The Bahamas, on
November 24, 2015. Before his birth, his mother, Elizabeth
Carron, frequently visited the United States. She first
learned that she was pregnant with A.R.D-C. at a doctor’s
visit in Coral Gables, Florida. She continued to visit the

6
United States during her pregnancy.
Robert David Dupuch-Carron was born in the
United States. A.R.D-C’.s paternal grandmother owned
a condominium in Coral Gables, Florida.
A.R.D-C. was healthy and developing normally until
he received eight vaccines at his pediatrician’s office in
Nassau, The Bahamas, on June 23, 2016, at the age of
7 months. The vaccines that A.R.D-C. received on June
23, 2016 are listed in the “Vaccine Injury Table” of the
NCVIA.
A.R.D-C. developed a fever on July 6, 2016. By July
9, 2016, A.R.D-C.’s fever had climbed to 107.1 degrees
Fahrenheit and he had developed petechiae (small
bruises) on his hands and legs. The fever and petechiae
were the first symptoms of secondary hemophagocytic
lymphohistiocytosis (HLH), an autoimmune disease of
the blood that is fatal if not successfully treated.
A.R.D-C. was flown to Miami, Florida, for treatment
of his illness on July 13, 2016 and was admitted to Miami
Children’s Hospital. A.R.D-C.’s doctors successfully
treated his HLH, and he began outpatient recovery at his
family’s condominium in Coral Gables, Florida. A.R.D-C.
spent most of the remainder of his life in the United States.
The treatment for HLH is chemotherapy that has
many potential complications, including acute myeloid
leukemia (AML). Unfortunately, in January of 2017,
A.R.D-C. developed treatment related AML as a result
of the chemotherapy. On August 17, 2017 he underwent
an allogenic bone marrow transplant at John Hopkins

7
Children’s Hospital in Baltimore, Maryland. On October
12, 2017, A.R.D-C.’s treatment related AML relapsed.
A.R.D-C. died as a result of treatment related AML on
December 24, 2017, in Baltimore, Maryland.
2.

Basis for Federal Jurisdiction

Claims for compensation through the National Vaccine
Injury Compensation Program are heard by the Office
of Special Masters of the United States Court of Federal
Claims. 42 USC § 300aa-12(a). If a party is unsatisfied
with the decision of the special master deciding a case,
the party can file a Motion for Review by a judge of the
United States Court of Federal Claims. 42 USC § 300aa12(e). The United States Court of Appeals for the Federal
Circuit has jurisdiction to review the final judgement of
the United States Court of Federal Claims under 42 USC
§ 300aa-12(f).
The Court of Federal Claims issued its final judgement
in this case on September 13, 2019. The Petitioners
(A.R.D-C.’s parents) filed their Notice of Appeal on
November 7, 2019. That appeal was timely under 42 USC
§ 300aa-12(f).
REASONS FOR GRANTING THE
WRIT OF CERTIORARI
The Petitioners, Robert David Dupuch-Carron and
Elizabeth Joanna Carron, have alleged that their son
(A.R.D-C.) died as a result of an illness caused by the
eight vaccines that he received when he was 7 months old.
Although A.R.D-C. received the vaccines in The Bahamas,
the vaccines were manufactured by manufacturers

8
located in the United States and covered by the National
Childhood Vaccine Injury Act (the NCVIA or the “Vaccine
Act”). 2
The Court of Appeals for the Federal Circuit denied
the Petitioners eligibility to seek compensation for the
death of their son though the National Childhood Vaccine
Injury Act because: 1) Their son (A.R.D-C.) was not
a resident of the United States when he received the
vaccinations outside of the United States; and 2) Their
son’s (A.R.D-C.’s) only pre-vaccination presence in the
United States was as a child in utero when his mother
visited the United States.
Nothing in the ordinary meaning of the words of the
NCVIA can be reasonably interpreted as restricting
access to the National Vaccine Injury Compensation
Program in this manner.
The statute allows a person who has received a
vaccination covered by the NCVIA outside of the United
States3 to seek compensation through the National Vaccine
Injury Compensation Program if that person was injured
by a covered vaccine (or died as a result of injuries caused
by a covered vaccine) and that person:
“received the vaccine outside the United
States or a trust territory and the vaccine was
2. The vaccines were covered by the NCVIA because they
are listed in the Act’s “Vaccine Injury Table.” 42 USC § 300aa14(a); 42 CFR § 100.3(a).
3. And the legal representatives of the estate of a person
who dies as a result of an injury associated with a covered vaccine.

9
manufactured by a vaccine manufacturer
located in the United States and such person
returned to the United States not later than
6 months after the date of the vaccination.”
42 USC § 300aa-11(c)(1)(B)(i)(III) (emphasis added).
The Petitioners ask the Court to review the decision
of the United States Court of Appeals for the Federal
Circuit because: 1) The court of appeals’ decision decided
an important question of federal law that has not been
but should be decided by this Court; and 2) The court of
appeals’ decision decided an important federal question in
a way that conflicts with relevant decisions of the Court,
specifically with this Court’s decisions in Sebelius v. Cloer,
569 U.S. 369 (2013) and Bostock v. Clayton County, ___
U.S. ___, 140 S.Ct. 1731 (2020).
I.
The Ordinary Meaning of the Words of Section
11(c)(1)(B)(i)(III) of the NCVIA Does Not Limit
Access to the National Vaccine Injury Compensation
Program to Persons Who Were Residents of the
United States When They Received a Covered
Vaccine Outside of the United States
The NCVIA allows some persons who receive a
covered vaccine outside of the United States to receive
compensation through the Act. 42 USC § 300aa-11(c)(1)
(B)(i)(III). The words of the Act explicitly set out the
conditions under which a person who receives a vaccine
outside of the United States can seek compensation under
that section of the Act.

10
The words of the Act require that: 1) The vaccine
that the person received “was manufactured by a vaccine
manufacturer located in the United States;” and 2) The
person “returned to the United States not later than 6
months after the date of the vaccination.” 42 USC § 300aa11(c)(1)(B)(i)(III). Nothing more.
The words of the Act do not require that the person
who received a covered vaccine outside of the United
States be a resident of the United States.
The decision of the United States Court of Appeals for
the Federal Circuit added a requirement that the person
who received a covered vaccine outside of the United
States be a resident of the United States when he or she
received the vaccine to Section 300aa-11(c)(1)(B)(i)(III).
The court of appeals decision says:
“We surmise that Congress, in enacting this
section, intended to provide protection for
persons who (1) previously resided in the
United States, where they were subject to
United States vaccination programs, (2) were
temporarily away from the United States when
they received the vaccination, and (3) ‘returned
to the United States’ within six months with
the intention of resuming residence therein.”
969 F.3d 1318, 1332-1333 (Fed. Cir. 2020).
The residency requirement imposed by the court of
appeals is based on the court of appeals’ opinion of how
Congress should have limited access to the Program.
Nothing in the words of the statute can be reasonably
interpreted as imposing a residency requirement.

11
The question of whether eligibility for compensation
through the National Vaccine Injury Compensation
Program under Section 300aa-11(c)(1)(B)(i)(III) of the
NCVIA requires that persons who receive a covered
vaccine outside of the United States be residents of the
United States is an important question of federal law that
has not been, but should be, settled by this Court. You
should grant the petition for writ of certiorari to address
that question.
A n interpretation of the NCV IA that adds a
requirement that is not set out in the words of the Act
conflicts with this Court’s decisions in Bostock v. Clayton
County,___ U.S. ___, 140 S. Ct. 1731 (2020), and Sebelius
v. Cloer, 569 U.S.369 (2013). You should grant the petition
for writ of certiorari to resolve that conflict.
A.

The NCVIA Defines the Conditions Under
Which a Person Who Receives a Covered
Vaccine Outside of the United States Can
Receive Compensation Through the Act

Section 300aa-11(c)(1)(B)(i)(III) of the NCVIA allows
a person who may have been injured by a vaccine4 that is
listed on the Vaccine Injury Table to seek compensation
under the Act if he or she:
“(III) received the vaccine outside the United
States or a trust territory and the vaccine
was manufactured by a vaccine manufacturer
4. The Vaccine Act also allows the legal representative of any
person who has died as the result of the administration of a vaccine
covered by the Act to seek compensation if the person who received
the vaccine would have been eligible to seek compensation. 42 USC
§ 300aa-11(b) (1)(A).

12
located in the United States and such person
returned to the United States not later than 6
months after the date of the vaccination.”
42 USC § 300aa-11(c)(1)(B)(i)(III).
The words of the NCVIA require that a person who
received a vaccine outside of the United States: 1) received
a “vaccine manufactured by a vaccine manufacturer
located in the United States;” and 2) “returned to the
United States not later than 6 months after the date of
vaccination.” Nothing more.
The words of the NCVIA do not impose a residency
requirement. Had Congress intended to include a
residency requirement in Section 300aa-(c)(1)(B)(i)(III) it
would have used words that explicitly imposed a residency
requirement. For example, the words of Section 300aa11(c)(1)(B)(i)(II) require that a person who receives a
vaccine outside of the United States be a citizen of the
United States and that the person received the vaccine
while “serving abroad as a member of the Armed Forces
or otherwise as an employee of the United States or a
dependent of such a citizen.” 42 USC § 300aa-11(c)(1)(B)
(i)(II) (emphasis added).
The court of appeals’ decision adds a specific and
detailed residency requirement to Section 11(c)(1)(B)(i)
(III) of the NCVIA. That requirement denies access to
the National Vaccine Injury Compensation Program under
Section11(c)(1)(B)(i)(III) to any person who: (1) Had not
“previously resided in the United States, where they were
subject to United States vaccination programs”; (2) Was
not “temporarily away from the United States when they

13
received the vaccination” outside of the United States; or
(3) Had not “’returned to the United States’ within six
months with the intention of resuming residency therein.”
Dupuch-Carron v. Sec’y of Health and Hum. Servs, 969
F.3d 1318, 1332-1333 (Fed. Cir. 2020).
The very specific residency requirements set out in
the court of appeals’ decision are not set out in the words
of Section 11(c)(1)(B)(i)(III). They are not suggested by the
legislative history of the NCVIA or any other extratextual
source. They are, instead, based entirely on the court of
appeal’s subjective belief of who should be — and who
should not be — eligible to seek compensation through
the NCVIA.
B. The Court of Appeals’ Decision Conflicts with
This Court’s Decisions in Bostock v. Clayton
County and Sebelius v. Cloer Because It Adds
a Residency Requirement to Section 11(c)(1)
(B)(i)(III) of the NCVIA
The court of appeals’ imposition of a residency
requirement was contrary to the United States Supreme
Court’s decisions in Bostock v. Clayton County, ___ U.S.
___, 140 S. Crt.1731 (June 15, 2020), and Sebelius v. Cloer,
569 U.S.369 (2013).
1.

Bostock v. Clayton County.

Your decision in Bostock v. Clayton County, ___ U.S.
___, 140 S. Crt.1731 (June 15, 2020), held that only the
words of a statute are the law. Your opinion explained:
“When the express terms of a statute give us
one answer and extratextual considerations

14
suggest another, it’s no contest. Only the
written word is the law, and all persons are
entitled to its benefit.”
that:
‘This Court normally interprets a statute in
accord with the ordinary public meaning of
its terms at the time of its enactment. After
all, only the words on the page constitute the
law adopted by Congress and approved by the
President. If judges could add to, remodel,
update, or detract from old statutory terms
inspired only by extratextual sources and our
own imaginations, we would risk amending
statutes outside the legislative process reserved
for the people’s representatives.”
and that:
“This Court has explained many times over
many years that, when the meaning of the
statute’s terms is plain, our job is at an end. The
people are entitled to rely on the law as written,
without fearing that courts might disregard
its plain terms based on some extratextual
consideration.”
Bostock v. Clayton County, ___ U.S. ___, 140 S. Crt.1731
at 1737, 1738, and 1749 (June 15, 2020) (emphasis added).
The court of appeals’ decision adds to the words of the
NCVIA, amending the Act outside the legislative process
in a way which severely restricts the Act’s application

15
to persons who receive covered vaccines outside of the
United States.
Your decision in Bostock prohibits judges from adding
requirements to a statute based on “extratextual sources”
or their “own imaginations.” By adding to the words of
the NCVIA, the court of appeals’ decision denied the
Petitioners the right to rely on the law as written. Their
claim for compensation through the NCVIA was denied
because it did not meet the court of appeals’ opinion of
who should be eligible to seek compensation, not because
their claim failed to meet the requirements written by
Congress.
You should grant the petition for writ of certiorari
to correct the court of appeals’ error and articulate an
interpretation of section 11(c)(1)(B)(i)(III) of the NCVIA
that relies on the ordinary meaning of the words in the
statute.
2.

Sebelius v. Cloer.

The court of appeals’ decision is also contrary to the
clear rule of law set out in your decision in Sebelius v.
Cloer, 569 U.S.369 (2013).
The words of the NCVIA allow a special master to
award attorney’s fees incurred in “any proceeding on”
a “petition filed under Section 300aa-11” of the NCVIA.
42 USC § 300aa-15(e)(1)(3), 569 U.S. at 376. In Cloer,
the Secretary of Health and Human Services argued
that an award of attorney’s fees was not available to an
unsuccessful petitioner unless the petitioner had filed his
or her claim within the Act’s statute of limitations. 569
U.S. 369 at 371-372, 377.

16
In a unanimous decision, you rejected the Secretary’s
argument because the plain language of the NCVIA did
not limit the award of attorney’s fees to cases in which
the petition had been filed within the Act’s statute of
limitations. 569 U.S.369 at 376-377.
The Court’s opinion explained that:
“Nothing in these two provisions [Sections
300aa-15(e)(1)(3) and 300aa-11] suggests that
the reason for the subsequent dismissal of a
petition, such as untimeliness, nullifies the
initial filing of that petition. We have explained
that ‘[a]n application is ‘filed,’ as that term is
commonly understood, when it is delivered to,
and accepted by, the appropriate court officer
for placement into the official record. [citation
omitted]. When this ordinary meaning is
applied to the text of the statute, it is clear that
an NCVIA petition which is delivered to the
clerk of the court, forwarded for processing,
and adjudicated in a proceeding before a
special master is a ‘petition filed under section
300aa-11.’ 42 USC §300aa-15(e)(1). And so long
as such a petition was brought in good faith
and with a reasonable basis, it is eligible for an
award of attorney’s fees, even if it is ultimately
unsuccessful. Ibid. If Congress had intended
to limit fee awards to timely petitions, it could
have easily done so. But the NCVIA instead
authorizes courts to award attorney’s fees for
those unsuccessful petitions ‘brought in good
faith and [for which] there is a reasonable basis.
Ibid.”

17
569 U.S. 369 at 376-377.
This Court held that adding the requirement that an
unsuccessful petition be filed within the NCVIA’s statute
of limitations was inconsistent with both the NCVIA and
the established rules of statutory construction. 569 U.S.
369 at 376-377, 380.
It might have seemed reasonable to require that
an unsuccessful petition be filed within the statute of
limitations in order to garner an award of attorney’s fees.
However, the words of the NCVIA did not impose that
requirement. In Cloer this Court held that because the
words of the NCVIA did not require that an unsuccessful
petition be filed within the statute of limitations, Congress
did not intend to impose that requirement.
That a residency requirement seemed reasonable to
the court of appeals did not empower the court to add a
residency requirement to Section 11(c)(1)(B)(i)(III). It was
up to Congress to determine what requirements to include
in the words of the law. If Congress had intended to limit
eligibility to seek compensation under Section 11(c)(1)(B)
(i)(III) to residents of the United States, the words in
Section 11(c)(1)(B)(i)(III) would have done so.
You should grant the petition for writ of certiorari
to correct the court of appeals’ error and articulate an
interpretation of section 11(c)(1)(B)(i)(III) of the NCVIA
that does not require that a person who receives a vaccine
outside of the United States be a resident of the United
States in order to seek compensation through the NCVIA.

18
II.
The Ordinary Meaning of the Words of Section
11(c)(1)(B)(i)(III) of the NCVIA Does Not Limit
Access to the National Vaccine Injury Compensation
Program to Persons Who Had Been Present in the
United States “While Living and Breathing Outside
Their Mother’s Body” Before They Received a
Covered Vaccine Outside of the United States
Section 11(c)(1)(B)(i)(III) of the NCVIA allows persons
who receive a covered vaccine outside of the United
States to receive compensation through the Act if: 1) The
vaccine that they received was manufactured by a vaccine
manufacturer located in the United States; and 2) They
“returned to the United States not later than 6 months
after the date of the vaccination.” 42 USC § 300aa-11(c)
(1)(B)(i)(III).
The NCVIA does not specify what kind of prior
presence in the United States is required to make a
subsequent entry into the United States a “return” to
the United States.
The United States Court of Appeals for the Federal
Circuit held that a person could not “return” to the United
States for the purposes of Section 11(c)(1)(B)(i)(III) unless
he or she had been present in the United States “while
living and breathing outside of his mother’s body” before
receiving the vaccination related to his or her injury. 969
F.3d at 1328.
The court of appeals’ conclusion that a person who
received a vaccination outside of the United States must

19
have been present in the United States while “outside of
his mother’s body” at some point prior to receiving that
vaccination in order to qualify to seek compensation under
section 11(c)(1)(B)(i)(III) is inconsistent with the words of
the NCVIA and the two primary purposes for the NCVIA:
stabilizing the vaccine market (by protecting vaccine
manufacturers from civil liability for vaccine related
injuries) and expediting compensation for persons who
may have been injured by covered vaccines.
The question of whether eligibility for compensation
through the National Vaccine Injury Compensation
Program under Section 11(c)(1)(B)(i)(III) of the NCVIA
requires that a person who receives a covered vaccine
outside of the United States had been present in the
United States “while living and breathing outside of
his mother’s body” at some point prior to receiving that
vaccination is an important question of federal law that
has not been, but should be, settled by this Court. You
should grant the petition for writ of certiorari to address
that question.
A.

Section 11(c)(1)(B)(i)(III) Does Not Limit
the Kind of Pre-Vaccination Presence in the
United States that Makes a Post-Vaccination
Entry into the United States a “Return” to the
United States.

Section 11(c)(1)(B)(i)(III) of the NCVIA allows persons
who receive a vaccine listed in the Vaccine Injury Table
to seek compensation through the Act if the person who
received the vaccine outside of the United States satisfies
the requirements of that section.

20
The NCV IA provides that a person can seek
compensation if:
“(i) if such person received a vaccine set forth
in the Vaccine Injury Table ....
(III) received the vaccine outside the United
States or a trust territory and the vaccine
was manufactured by a vaccine manufacturer
located in the United States and such person
returned to the United States not later than
6 months after the date of the vaccination.”
42 USC § 300aa-11(c)(1)(B)(i)(III) (emphasis added).
Section 11(c)(1)(B)(i)(III) does not require that the
person who “received the vaccine outside the United
States” had been previously present in the United States
as a “person.”
The ordinary meaning of the words in section 11(c)(1)
(B)(i)(III) does not define — or limit — what kind of prior
presence in the United States makes a post-vaccination
entry into the United States a “return” to the United
States.
B. The Primary Purposes of the NCVIA Were to
Stabilize the Market for Childhood Vaccines
and to Compensate Persons Injured by Rare
Vaccine Related Injuries
The NCVIA is a remedial statute, Cloer v. Sec’y of
Health and Hum. Servs., 675 F.3d 1358, 1362 (Fed. Cir.

21
2012), and as such should be interpreted in a manner
which advances the remedial purpose of the statute. Cloer
v. Sec’y of Health and Hum. Servs., 675 3.3d at 1362, see
also Atchison, Topeka, & Santa Fe Ry. Co, v Buell, 480
U.S. 557, 561-562 (1987).
The two primary purposes for the NCVIA were to
stabilize the market for childhood vaccines by protecting
vaccine manufacturers and administrators “located in
the United States” from civil liability for vaccine related
injuries and to compensate persons injured as a result of
rare vaccine related injuries. Sebelius v. Cloer, 569 U.S.
369, 272 (2013); Bruesewitz v Wyeth, LLC, 562 U.S. 223,
228-230 (2011); see also H.R. Rep. No. 99-908, 99th Cong.
2d Sess., pt.1, pages 7, 12-13 (Sept. 26, 1986) reprinted
in 1986 U.S. Code Cong. Admin. News 6344, pages 6348,
6353-54.
The legislative history of the NCVIA says that
Congress meant it to create a “generous” compensation
system, Bruesewitz v. Wyeth, 562 U.S. at 228-230, 238;
H.R. Rep. No. 99-908, pages 3, 12, that would divert
persons injured by covered vaccines from product
liability and medical malpractice litigation by awarding
compensation to injured persons. H.R. Rep. No. 99-908,
page 13.
C.

The Court of Appeals Denied A.R.D-C. and His
Parents Access to the NCVIA because A.R.DC.’s Pre-Vaccination Presence in the United
States Was as a Child Who Was In Utero when
His Mother Visited the United States

The court of appeals held that A.R.D-C., and therefore
his parents, were not eligible to seek compensation

22
because A.R.D-C. had not “returned to the United States”
after his June 23, 2016 vaccinations.
This holding was based on two conclusions: 1) That
A.R.D-C. was not a “person” as the term is used in
the NCVIA when he was present in the United States
while in utero; and 2) That in order to be eligible to seek
compensation under Section 11(c)(1)(B)(i)(III) of the
NCVIA a person who receives a vaccination outside of
the United States must have been present in the United
States as a person at some point before receiving that
vaccination. 969 F.3d at 1328.
D.

The Court of Appeals’ Interpretation of Section
11(c)(1)(B)(i)(III) is Inconsistent with the
Ordinary Meaning of the Words of the NCVIA

The ordinary meaning of the words in the NCVIA
does not limit eligibility to seek compensation under
section 11(c)(1)(B)(i)(III) to persons who had been present
in the United States while outside their mother’s body
before receiving that vaccination.
The words of the Act require that the person “received
a vaccine outside of the United States” and that he
or she received a vaccine “manufactured by a vaccine
manufacturer located in the United States.” If a person
satisfies those two requirements, he or she is eligible to
seek compensation under Section 11(c)(1)(B)(i)(III) if he or
she returns to the United States not later than six months
after receiving the vaccine.
The words of the NCVIA do not require that the
person who “received the vaccine outside of the United

23
States” be “a person who was present in the United
States” at some point before receiving the vaccine. The Act
does not define — or limit — the kind of pre-vaccination
presence required to satisfy Section 11(c)(1)(B)(i)(III).
The term “person” in Sections 11(c)(1)(B)(i) and in
11(c)(1)(B)(i)(III) is applied to the “person who received a
vaccine” and the person who “received the vaccine outside
of the United States.” It does not, therefore, apply to the
person before receiving a vaccine.
E. The Court of Appeals’ Interpretation of Section
11(c)(1)(B)(i)(III) Undermines the Primary
Purposes of the NCVIA
The two primary purposes for the NCVIA are to
protect vaccine manufacturers and administrators
“located in the United States” from civil liability for
vaccine related injuries and to compensate persons
injured as a result of rare vaccine related injuries.
Sebelius v. Cloer, 569 U.S. at 272 (2013); Bruesewitz v
Wyeth, LLC, 562 U.S. at 228-230 (2011). The legislative
history of the NCVIA says that Congress meant it to
create a “generous” compensation system that would
divert persons injured by covered vaccines from product
liability and medical malpractice litigation by awarding
compensation to injured persons. H.R. Rep. No. 99-908,
pages 3, 7, and 12- 13.
The court of appeals’ interpretation of Section 11(c)
(1)(B)(i)(III) undermines both of these purposes by: 1)
Expanding the exposure of “vaccine manufacturers
located in the United States” to civil liability for vaccines
administered outside of the United States; and 2)

24
Narrowing the population of vaccine-injured persons who
are eligible to seek compensation.
F.

The Court of Appeals’ Interpretation of Section
11(c)(1)(B)(i)(III) Is Inconsistent with Section
11(f) of the NCVIA

The court of appeals’ interpretation of Section 11(c)(1)
(B)(i)(III) is also at odds with the most recent amendment
to the NCVIA — the “Maternal Immunization” provisions
added to the NCVIA by the 21st Century Cures Act. 42
USC § 300aa-11(f).
1.

The maternal immunization provisions of
the NCVIA recognize children who were
in utero when their mothers received a
vaccine as persons who received a vaccine

The maternal immunization provisions of the NCVIA
explicitly recognize children who were in utero when
their mothers received a covered vaccine as persons who
received a vaccination for the purposes of the NCVIA. 42
USC § 300aa-11(f).
The maternal immunization provisions of the
NCVIA serve the purposes of the original NCVIA by:
1) Protecting vaccine manufacturers from civil liability
for vaccine related injuries which occur in utero; and 2)
Providing compensation to children who were injured by
vaccines while in utero. See Rooks v. Sec’y of Health and
Hum. Servs., 35 Fed. Cl. 1, 4-5, 9-10 (January 29, 1996);
Melton v. Sec’y of Health & Hum. Servs., 2002 U.S. Claims
LEXIS 385 at *1-2, *5-9, 2002 WL 229781 (Fed. Cl. Spec.
Mstr., July 3, 2002); and Burch v. Sec’y of Health & Hum.

25
Servs., 2010 U.S. Claims LEXIS 154 at *4-5, *22-29, 2010
WL 1676767 (Fed. Cl. Spec. Mstr., April 9, 2010).
2.

The court of appeals relied on the maternal
immunization provisions of the NCVIA
to deny A.R.D-C access to the National
Vaccine Injury Compensation Program

The court of appeals relied on Section 11(f) — and the
definition of “child” in 1 USC § 8 that is incorporated in it
— for its conclusion that a child who is in utero when his or
her mother visits the United States is not a “person” who
is present in the United States and that a pre-vaccination
in utero presence in the United States is insufficient to
make a post-vaccination entry into the United States a
“return” to the United States. 969 F.3d at 1325-1328
3.

The court of appeals’ reliance on Section
11(f) of the NCVIA and 1 USC § 8 to limit
the access of the NCVIA was inconsistent
with the plain language and purpose of
Section 11(f) of the NCVIA and 1 USC § 8

The court of appeals reliance on Section 11(f) of
the NCVIA and 1 USC § 8 to limit the access to the
compensation provided by the NCVIA was inconsistent
with the plain language and purpose of Section 11(f) of
the NCVIA and inconsistent with 1 USC § 8.
Section 11(f) reads:
“(f) Maternal immunization.
(l) In general. Notwithstanding any other
provision of law, for purposes of this subtitle

26
[ 42 USCS §§ 300aa-10 et seq.], both a woman
who received a covered vaccine while pregnant
and any child who was in utero at the time such
woman received the vaccine shall be considered
persons to whom the covered vaccine was
administered and persons who received the
covered vaccine.
(2) Definition. As used in this subsection, the
term ‘child’ shall have the meaning given that
term by subsections (a) and (b) of [section 8
of title I, United States Code], except that, for
purposes of this subsection, such section 8 shall
be applied as if the term “include” in subsection
(a) of such section were replaced with the term
‘mean.’ ”
42 USC § 300aa-11(f) (emphasis added).
Section 1 of Title 8 of the United States Code defines
the word “person” to “include every infant member of
the species homo sapiens who is born alive at any stage
of development.” 1 USC § 8(a).
Section 8(c) specifies that:
“Nothing in this section shall be construed
to affirm, deny, expand, or contract any legal
status or right applicable to any member of the
species homo sapiens at any point prior to being
‘born alive’ as defined in this section.”
1 USC § 8(c) (emphasis added).

27
The words of 1 USC Section 8 clearly say that its
definition of “person” shall not be construed to deny “any
legal status or right applicable to any member of the
species homo sapiens at any point prior to being ‘born
alive’ . . .”
The court of appeals disregarded the plain words of
1 USC § 8 — and, therefore, Section 11(f) of the NCVIA
— when it denied A.R.D-C. access to the National
Vaccine Injury Compensation Program because his prevaccination presence in the United States was while in
utero.
G. A.R.D-C. Was a “Person” When He Received
His June 23, 2016 Vaccinations and When He
Returned to the United States for Medical Care
on July 13, 2016
A.R.D-C. had been “born alive” and was therefore a
“person” under 1 USC § 8(a)’s definition when he received
vaccines listed on the Vaccine Injury Table at his doctor’s
office in the Bahamas on June 23, 2016.
Section 11(c)(1)(B)(i)(III) of the NCVIA makes any
“person” who receives a vaccine outside of the United
States eligible for compensation if he or she returns to
the Unites States no later than six months after receiving
the vaccine.
A.R.D-C. was, therefore, a person who “received a
vaccine outside of the United States” for the purposes
of Section 11(c)(1)(B)(i)(III) of the NCVIA as of June 23,
2016. As a person who had received vaccines outside of
the United States, all A.R.D-C. needed to do to be eligible

28
to seek compensation though the National Vaccine Injury
Compensation Program was to “return to the United
States not later than 6 months after receiving” those
vaccines.
A.R.D-C. was flown to the United States for treatment
of his vaccine-related illness on July 13, 2016. Under a
correct interpretation of Section 11(c)(1)(B)(i)(III) that
entry into the United States would have been enough
to satisfy the requirement that he return to the United
States.
Under the court of appeals’ interpretation of Section
11(c)(1)(B)(i)(III) A.R.D-C.’s July 13, 2016 entry into the
United States was not a “return” to the United States
because he had not been in the United States “as a
person” before receiving his June 23, 2016 vaccinations.
The court of appeals’ interpretation of Section 11(c)(1)
(B)(i)(III) disregarded the ordinary meaning of Section
11(c)(1)(B)(i)(III) — which required only that A.R.D-C. be
a “person” when he received the vaccines outside of the
United States. It also disregarded the clear prohibition
in 1 USC § 8(c) against denying any legal status or right
applicable to any member of the species homo sapiens at
any point prior to being “born alive.”
Whatever his legal status (that is, whether he was
a “person” or not) A.R.D-C. was present in the United
States before his June 23, 2016 vaccinations, so his July
13, 2016 trip to the United States was a “return” to the
United States.

29
You should grant the petition for writ of certiorari
to correct the court of appeals error and articulate an
interpretation of Section 11(c)(1)(B)(i)(III) of the NCVIA
that does not deny access to the National Vaccine Injury
Compensation Program to children whose pre-vaccination
presence in the United States was while in utero.
CONCLUSION
You should grant this petition for a writ of certiorari
in order to review the United States Court of Appeals for
the Federal Circuit’s decision and correct its erroneous
interpretation of Section 11(c)(1)(B)(i)(III) of the National
Childhood Vaccine Injury Act.
Respectfully submitted.
Curtis R. Webb
Counsel of Record
Law Office of Curtis R. Webb
7495 Westview Lane
P.O. Box 429
Monmouth, Oregon 97361
(541) 231-8971
crwebb@mindspring.com
Counsel for the Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED AUGUST 11, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
ROBERT DAVID DUPUCH-CARRON,
ELIZABETH JOANNA CARRON, AS THE
LEGAL REPRESENTATIVES OF THEIR
MINOR SON, A. R. D-C.,
Petitioners-Appellants,
v.
SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent-Appellee.
2020-1137
Appeal from the United States Court of Federal
Claims in No. 1:17-vv-01551-RAH, Judge Richard A.
Hertling.
August 11, 2020, Decided
Before PROST, Chief Judge, CLEVENGER and STOLL,
Circuit Judges.

2a
Appendix A
Clevenger, Circuit Judge.
Appellants Robert David Dupuch-Carron and
Elizabeth Joanna Carron, husband and wife, are the
legal representatives of the estate of their deceased
infant son, A.R. D-C. Appellants filed an action seeking
compensation for injuries allegedly compensable under
the National Vaccine Injury Compensation Act, 42 U.S.C.
§§ 300aa-1 et seq. (“the Vaccine Act”). Appellants asserted
standing to seek compensation pursuant to 42 U.S.C.
§ 300aa—11(c)(1)(B)(i)(III), which grants standing to
a person who “received [a covered] vaccine outside the
United States or a trust territory and the vaccine was
manufactured by a vaccine manufacturer located in the
United States and such person returned to the United
States not later than 6 months after the date of the
vaccination.” On the parties’ cross-motions for summary
judgment, the Special Master ruled that Appellants are
ineligible to seek compensation under the Vaccine Act,
granted the Secretary of the Department of Health &
Human Services’ (the “Government” or “HHS”) motion,
and dismissed the petition. See Dupuch-Carron v. Sec’y
of Health & Hum. Servs., No. 17-1551V, 2019 U.S. Claims
LEXIS 578, 2019 WL 2263369 (Fed. Cl. Apr. 23, 2019).
Appellants filed a motion for review with the United States
Court of Federal Claims (“the Claims Court”) pursuant
to 42 U.S.C. § 300aa-12(e). The Claims Court denied
Appellants’ motion for review. See Dupuch-Carron v. Sec’y
of Health & Hum. Servs., 144 Fed. Cl. 659 (2019). For the
reasons discussed herein, we affirm.

3a
Appendix A
Background
I. Facts
Appellants were domiciled in Nassau, The Bahamas,
for the entirety of the time period relevant to this case.
Mrs. Carron is a citizen of the United Kingdom and avers
that she is a “frequent visitor to the United States,”
spending “10 to 12 long weekends” in the country each
year. Dupuch-Carron, 144 Fed. Cl. at 660. During a trip
to Coral Gables, Florida from March 24 to April 3, 2015,
Mrs. Carron visited an internist, who informed her that
she was pregnant. After learning of her pregnancy, she
claims to have traveled to the United States an additional
four times while pregnant.
Mr. Dupuch-Carron was born in the United States.
He appears to have grown up in The Bahamas but recalls
“spen[ding] a great deal of time [in the United States]
as a child during the summer holidays.” Id. (alteration
in original). Mr. Dupuch-Carron also avers that he is a
“frequent visitor to the United States,” spending “between
30 and 45 days in the United States on business” in a
typical year. Id.
Mr. and Mrs. Dupuch-Carron’s son, A.R. D-C., was
born on November 24, 2015, at Doctors Hospital in Nassau,
The Bahamas. He continued to live in Nassau for the first
six months of his life. During that time, A.R. D-C. had
unremarkable well-child visits at his pediatric center in
Nassau, and was considered to be healthy and developing
normally. He also received his first two sets of vaccinations
in Nassau, with no apparent adverse consequences.

4a
Appendix A
On June 23, 2016, during his six-month well-child
visit to his pediatrician in Nassau, A.R. D-C. received his
third set of vaccinations, which included the DTap, IPV,
HIB, HBV, Prevnar, and rotavirus vaccinations. There
is no dispute that the eight vaccines A.R. D-C. received
during his June 23rd visit to the pediatrician are listed
in the Vaccine Injury Table and were manufactured by
companies with a presence in the United States.
On July 7, 2016 and July 9, 2016, A.R. D-C. presented
at the pediatrician with complaints of a fever greater than
102 degrees Fahrenheit, crankiness, stuffy nose, rattling
in his chest, occasional chesty coughs, reduced activity,
vomiting, and diarrhea. A.R. D-C.’s parents brought him
to the emergency room at Doctors Hospital in Nassau on
July 10, 2016 with complaints of fever and vomiting for
five days, irritability, and decreased appetite. The doctors
determined he had thrombocytopenia and pancytopenia for
which he received a blood transfusion, and febrile neutropenia for which he was given an intravenous antibiotic. On
July 11, 2016, A.R. D-C. was transferred to the intensive
care unit at Princess Margaret Hospital in Nassau, where
a pediatric hematologist-oncologist recommended he be
transferred to an institution “equipped to enable quick
turn around and confirmation of the leukemia if present.”
Dupuch-Carron, 144 Fed. Cl. at 661.
Physicians in The Bahamas determined that A.R.
D-C. would receive better treatment in the United States,
and on July 13, 2016, A.R. D-C. was transferred by air
ambulance to Nicklaus Children’s Hospital in Miami,
Florida, where he was diagnosed with hemophagocytic

5a
Appendix A
lymphohis-tiocytosis (“HLH”). HLH is an autoimmune
disease of the blood, fatal unless treated successfully. A.R.
D-C. was treated at Nicklaus Children’s Hospital until he
was discharged on August 12, 2016, “on the condition he
remain in Florida as an outpatient.” Id.
A.R. D-C. received weekly treatment as an outpatient
at Nicklaus Children’s Hospital. A.R. D-C. was cleared
to leave the United States over the Christmas season, so
the family returned to The Bahamas. On February 28,
2017, A.R. D-C. was readmitted to Nicklaus Children’s
Hospital. He was diagnosed with acute myeloid leukemia
(“AML”). A.R. D-C. underwent treatment, which included
chemotherapy and radiation at Cincinnati Children’s
Hospital in Cincinnati, Ohio, as well as a bone-marrow
transplant at Johns Hopkins Bloomberg Children’s
Hospital in Baltimore, Maryland.
On October 17, 2017, Appellants filed a petition under
the Vaccine Act. On December 24, 2017, A.R. D-C. died
from AML, and on March 26, 2018, Appellants filed an
amended petition, alleging that the AML, which caused
A.R. D-C.’s death, was a complication resulting from the
treatment he had received for his vaccine-induced HLH.
II. Procedural History
In Vaccine Act cases, the Claims Court and its
special masters have jurisdiction over proceedings to
determine if a petitioner under § 300aa–11 is entitled to
compensation and the amount of such compensation. 42
U.S.C. § 300aa–12(a).

6a
Appendix A
Prior to the filing of the amended petition, the
Special Master in this case identified, as a threshold
question, the issue of whether Appellants were eligible for
compensation under the Vaccine Act because the vaccines
were administered outside of the United States. The
Special Master directed the parties to file cross-motions
for summary judgment on that limited issue.
On March 26, 2018, concurrent with their filing of the
amended petition, Appellants filed a Motion for Partial
Summary Judgment on the limited issue of their eligibility
under the Vaccine Act for compensation. Specifically,
Appellants argued that A.R. D-C. “returned,” under that
term’s plain meaning of “go back,” to the United States
within 6 months of receiving his vaccinations as required
by 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III). Appellants, citing
the maternal immunization amendment to the Vaccine Act
as support, argued that A.R. D-C.’s initial entrance into
the United States occurred while in utero, and that A.R.
D-C.’s “return” to the United States occurred when he
traveled to Florida seeking medical treatment for HLH
within 6 months of receiving his vaccinations.
On June 7, 2018, the Government filed a CrossMotion for Summary Judgment on that threshold issue.
The Government argued that “the recent maternal
immunization amendment to the Vaccine Act establishes
that a child in utero can ‘receive’ a vaccine but it does
not establish that the child in utero was ‘present’ in the
United States for purposes of a later ‘return.’” DupuchCarron, 2019 U.S. Claims LEXIS 578, 2019 WL 2263369,
at *5. Specifically, the Government argued that: (1) 42

7a
Appendix A
U.S.C. § 300aa–11(c)(1)(B)(i)(III) requires that a “person”
“return” to the United States within six months of
receiving a vaccination; (2) A.R. D-C.’s “mother’s entries
into the United States while pregnant do not mean that
[he] was ‘present’ [as a person] in the United States prior
to birth”; and (3) “A.R. D-C. was not present in the United
States at any time between his birth and his vaccinations.”
Id. (internal citations omitted). Thus, according to the
Government, because A.R. D-C. had never previously
been in the United States as a “person,” as required by
the statute, his “post-vaccination entry into the United
States cannot constitute a ‘return.’” Id.
The Government also argued that even if A.R. D-C. is
recognized as a “person” who was present in the United
States while in utero, A.R. D-C. did not “return[] to
the United States,” under a proper interpretation of the
phrase, within six months after the date of vaccination.
Specifically, the Government argued that a court does not
construe statutes in a vacuum, and the words of a statute,
such as “return,” must be read in their context and with
a view to their place in the overall statutory scheme. As
support, the Government cited to the Claims Court’s
decision in McGowan v. Secretary of the Department
of Health & Hum. Services, which found that because
“the word ‘return’ relies on its context in order to impart
a sense of permanence, the plain meaning rule is not
dispositive.” 31 Fed. Cl. 734, 738 (1994). Instead, according
to the McGowan court, the phrase “returned to the United
States” was limited to persons who had previously lived
in the United States and returned within six months of
vaccination with the intention to remain permanently in
the United States from that point on. See id. at 734-40.

8a
Appendix A
Appellants filed their Response and Reply on July
12, 2018. On April 23, 2019, however, the Special Master
denied Appellants’ Motion and granted the Government’s
Motion. First, the Special Master found that while
“Congress did expressly amend the Vaccine Act to permit
a cause of action alleging that a child was injured by
transplacental exposure to a vaccine administered to his
or her mother (but only after that child was born alive),”
“this amendment did not change the definition of child
or person,” which is limited to live-born members of the
species homo sapiens. Dupuch-Carron, 2019 U.S. Claims
LEXIS 578, 2019 WL 2263369, at *6. Thus, according to
the Special Master, “A.R. D-C., while living and breathing
outside of his mother’s body, was never present in the
United States before his vaccinations or the onset of his
severe illness” and “his entrance to the United States,
while within six months after the vaccinations at issue,
cannot be construed as a ‘return.’” Id. Second, the Special
Master found that even if A.R. D-C. was viewed to be
a person upon being carried in utero into the United
States, there was not sufficient evidence that he would
have “returned to the United States” within six months,
as that phrase was construed in McGowan. 2019 U.S.
Claims LEXIS 578, [WL] at *10.
On May 23, 2019, Appellants filed a Motion for Review
of the Special Master’s decision, asking the Claims Court
to review and reverse the Special Master’s decision. In
the Motion for Review, Appellants raised the following
objection:
The special master’s conclusion that the
petitioners were not eligible to seek compensation

9a
Appendix A
from the National Vaccine Injury Compensation
Program because their son [A.R. D-C.]: 1) could
not be viewed as a person who was present in
the United States prior to his vaccinations;
and 2) had not returned to the United States
within six months after vaccinations was not in
accordance with the law.
Dupuch-Carron, 144 Fed. Cl. at 662.
The Government filed its Response to Appellants’
Motion for Review on June 20, 2019, arguing that the
Special Master’s decision on Appellants’ eligibility to seek
compensation under the Vaccine Act was correct. With
the Claims Court’s leave, Appellants filed their Reply on
July 5, 2019. The Claims Court heard oral argument on
Appellants’ Motion for Review on September 5, 2019.
The Claims Court issued its opinion under seal on
September 10, 2019 and reissued it for public availability
on September 25, 2019. With respect to the first issue,
the Claims Court found that “[t]he Vaccine Act considers
a child whose mother receives a vaccine while the child is
in utero to be a ‘person,’” and therefore assumed without
deciding, for the purposes of its analysis, that A.R. D-C.
was a “person” under the relevant portions of the Vaccine
Act, with a prior presence in the United States. DupuchCarron, 144 Fed. Cl. at 664 n.12. Thus, before the Claims
Court, the case turned on the second issue raised by
Appellants—whether A.R. D-C.’s arrival for medical
treatment constituted “return” for the purposes of the
Vaccine Act’s exception to its requirement that claimants
be vaccinated in the United States.

10a
Appendix A
While the Claims Court declined to adopt the more
narrow reading of the statute advanced in McGowan, it
nevertheless found that, “[i]n light of the silence in the
legislative record and the presumptions attendant to the
task of statutory interpretation in this case, [there is]
nothing to suggest that Congress meant to cover foreign
nationals arriving in the United States for the purpose of
seeking medical treatment when it used the word ‘return’
in the Vaccine Act.” Id. at 666. Accordingly, “[b]ecause
A.R. D-C.’s entry into the United States to receive medical
treatment did not fall within the more specific meaning
of ‘return to the United States’” laid out by the Claims
Court, the court held that A.R. D-C. had “not satisfied the
requirements under 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III),”
id. at 667, and denied Appellants’ Motion for Review.
This appeal followed.
Discussion
This court has jurisdiction to review the final
judgment of the Claims Court under 42 U.S.C. § 300aa–
12(f). In Vaccine Act cases, we review the Claims Court’s
decision de novo, “applying the same standard of review
as the Court of Federal Claims applied to its review of the
special master’s decision.” Griglock v. Sec’y of Health &
Hum. Servs., 687 F.3d 1371, 1374 (Fed. Cir. 2012) (citation
omitted); see also Paluck v. Sec’y of Health & Hum. Servs.,
786 F.3d 1373, 1378 (Fed. Cir. 2015). “We owe no deference
to the trial court or the special master on questions of
law, but we uphold the special master’s findings of fact
unless they are arbitrary or capricious.” Lozano v. Sec’y

11a
Appendix A
of Health & Hum. Servs., 958 F.3d 1363, 1368 (Fed. Cir.
2020) (citing Griglock, 687 F.3d at 1374). “Thus, although
we are reviewing as a matter of law the decision of the
Court of Federal Claims under a nondeferential standard,
we are in effect reviewing the decision of the Special
Master under the deferential arbitrary and capricious
standard on factual issues.” Griglock, 687 F.3d at 1374
(internal citations omitted).
The Vaccine Act gives the Claims Court (and its special
masters) jurisdiction “over proceedings to determine if a
petitioner under section 300aa-11 of this title is entitled to
compensation under the [Vaccine Injury Compensation]
Program and the amount of such compensation.” Martin
ex rel. Martin v. Sec’y of Health & Hum. Servs., 62 F.3d
1403, 1406 (Fed. Cir. 1995) (quoting 42 U.S.C. § 300aa–
12(a) (Supp. V 1993)). “Section 300aa–11, in turn, sets out
the rules governing petitions for compensation.” Id.
The Vaccine Act, 42 U.S.C. § 300aa–11(c)(1)(B)(i),
delimits the categories of persons who may pursue a claim
under it. Pursuant to the relevant provision, the person
seeking compensation under the Act must show that he
or she:
(I) received the vaccine in the United States or
in its trust territories,
(II) received the vaccine outside the United
States or a trust territory and at the time of
the vaccination such person was a citizen of the
United States serving abroad as a member of

12a
Appendix A
the Armed Forces or otherwise as an employee
of the United States or a dependent of such a
citizen, or
(III) received the vaccine outside the United
States or a trust territory and the vaccine
was manufactured by a vaccine manufacturer
located in the United States and such person
returned to the United States not later than
6 months after the date of the vaccination . . .
42 U.S.C. § 300aa–11(c)(1)(B)(i).
Appellants do not claim that either 42 U.S.C. § 300aa–
11(c)(1)(B)(i)(I) or § 300aa–11(c)(1)(B)(i)(II) is applicable
to this case. Therefore, the question before the court,
as it was before the Claims Court and Special Master,
is whether 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III) allows
Appellants, under the specific facts of this case, to apply
for compensation under the Vaccine Act.
Section 300aa–11(c)(1)(B)(i)(III) limits compensation
under the Vaccine Act to (1) persons who (2) returned to
the United States not later than 6 months after the date
of the vaccination. Accordingly, we address whether:
(1) A.R. D-C. was a “person” who had previously been in
the United States in order for any subsequent travel there
to constitute a “return”; and (2) A.R. D-C. “returned to
the United States” within 6 months after the date of his
vaccinations.

13a
Appendix A
I.

A.R. D-C. Was Not a “Person” Who Had
Previously Been to the United States

The Claims Court found that “[t]he Vaccine Act
considers a child whose mother receives a vaccine while
the child is in utero to be a ‘person,’” Dupuch-Carron,
144 Fed. Cl. at 664 n.12, and therefore assumed without
deciding, for the purposes of its analysis, that A.R.
D-C. was a “person” under the relevant portions of the
Vaccine Act, with a prior presence in the United States.
We review the Claims Court’s decision de novo and find,
for the reasons discussed below, that it misinterpreted
the relevant language of the Vaccine Act and thus
impermissibly assumed that a child in utero is a “person”
under 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III).
It is undisputed that A.R. D-C. was born in The
Bahamas, resided in The Bahamas uninterrupted for his
first six months of life, received the vaccinations at issue
in The Bahamas, and did not enter the United States as a
live born child until nearly three weeks after vaccination
for the purpose of medical treatment. Nevertheless, a
“person” who receives a vaccination outside of the United
States is eligible to seek compensation through the
Vaccine Act under Section 300aa–11(c)(1)(B)(i)(III) if he
“returned to the United States” not later than six months
after the date of vaccination. See 42 U.S.C. § 300aa–11(c)
(1)(B)(i)(III). Appellants concede that “[i]mplicit in the
word ‘returned’ is a requirement that the person had
been present in the United States at some time before
the vaccination.” Appellants’ Br. 43 (italics added). Thus,
in order to show that A.R. D-C. “returned to the United

14a
Appendix A
States,” Appellants must first show that their child, A.R.
D-C., was a “person [that] had been present in the United
States” at some time before the vaccination. According
to Appellants, A.R. D-C.’s prior presence in the United
States in utero satisfies the relevant statute.
The definition of “person” and “child” applicable
to “any Act of Congress,” including the Vaccine Act, is
“every infant member of the species homo sapiens who is
born alive at any stage of development.” 1 U.S.C. § 8(a).
Though they acknowledge the definition’s applicability,
Appellants point out that 1 U.S.C. § 8(c) states, “[n]othing
in this section shall be construed to affirm, deny, expand,
or contract any legal status or legal right applicable to any
member of the species homo sapiens at any point prior to
being ‘born alive.’” See Oral Arg. at 28:33-30:04, http://
oralarguments.cafc.uscourts.gov/default.aspx?fl=20-1137.
mp3. And, based on the text of the Vaccine Act in view of
cases involving transplacental exposure to a vaccine, and
decisions interpreting the Social Security Act, Appellants
argue that an unborn fetus is a “person” having an
independent and legally significant presence under the
Vaccine Act that cannot be denied or contracted by 1
U.S.C. § 8(a). Id. We disagree.
Appellants first allege that “[t]wo decisions from
the Court of Federal Claims and a third from a special
master have held that a child in utero is a ‘person’ for the
purposes of the Vaccine Act.” Appellants’ Br. 46-47. In
Rooks v. Sec’y of Dep’t of Health & Hum. Servs., Melton
v. Sec’y of Dep’t of Health & Hum. Servs., and Burch v.
Sec’y of Dep’t of Health & Hum. Servs.—the opinions cited

15a
Appendix A
by Appellants—the Claims Court and Special Masters
were presented with the question of whether a child,
whose mother received a vaccine while it was in utero,
can be deemed to have also “received” the vaccine, such
that they can petition for compensation under the Vaccine
Act once born. See Rooks v. Sec’y of Dep’t of Health &
Hum. Servs., 35 Fed. Cl. 1, 4 (1996) (stating “this case
deals with the special master’s legal determination of
the meaning of ‘received’ under the Vaccine Act” and
finding “that the potential to ‘receive’ a vaccine while in
utero exists”); Burch v. Sec’y of Dep’t of Health & Hum.
Servs., No. 99-946V, 2010 U.S. Claims LEXIS 154, 2010
WL 1676767 (Fed. Cl. Spec. Mstr. Apr. 9, 2010); Melton v.
Sec’y of Dep’t of Health & Hum. Servs., No. 01-105V, 2002
U.S. Claims LEXIS 21, 2002 WL 229781 (Fed. Cl. Spec.
Mstr. Jan. 25, 2002). These cases do not state or imply,
however, that those in utero are themselves “persons” that
have a separate legal presence while traveling abroad for
purposes of determining eligibility to seek compensation
through the Vaccine Act.
Appellants nevertheless allege that the 21st Century
Cures Act’s (the “Cures Act”) amendment to the Vaccine
Act,1 which reflects those earlier decisions, “recognized
and ratified the conclusion that a child in utero is a person
for the purposes of the Vaccine Act.” Appellants’ Br. 51.
1. In 2016, the 21st Century Cures Act, Pub. L. No. 114-255, 130
Stat. 1033, 1152 (Dec. 13, 2016), amended the Vaccine Act to provide
that “[a] covered vaccine administered to a pregnant woman shall
constitute more than one administration, one to the mother and
one to each child . . . who was in utero at the time such woman was
administered the vaccine.”

16a
Appendix A
First, the Cures Act’s amendment to the Vaccine Act—
42 U.S.C. § 300aa–11(f)—did not amend the subsection
concerning extraterritorial application of the Vaccine
Act at issue here. Second, rather than make explicit
the principle that a child in utero is a “person” for all
purposes of the Vaccine Act, the statute makes clear that
those whose mother received a vaccine while they were
in utero do not have a cognizable claim under the Vaccine
Act until they become a “person”—i.e. , “a member of
the species homo sapiens who is born alive at any stage
of development.” See 42 U.S.C. § 300aa–11(f)(1); 1 U.S.C.
§ 8(a).
The amendment, which addresses “Maternal
immunization,” states:
(1) In general
Notwithstanding any other provision of law,
for purposes of this part, both a woman who
received a covered vaccine while pregnant and
any child who was in utero at the time such
woman received the vaccine shall be considered
persons to whom the covered vaccine was
administered and persons who received the
covered vaccine.
(2) Definition
As used in this subsection, the term “child”
shall have the meaning given that term by
subsections (a) and (b) of section 8 of Title 1,

17a
Appendix A
except that, for purposes of this subsection,
such section 8 shall be applied as if the term
“include” in subsection (a) of such section were
replaced with the term “mean”.
42 U.S.C. § 300aa–11(f) (emphasis added).
Appellants and the Claims Court have both interpreted
42 U.S.C. § 300aa–11(f)(1) as suggesting that a “child in
utero” is a “person.” See Dupuch-Carron, 144 Fed. Cl. at
664 n.12; Appellants’ Reply Br. 16. They are mistaken. The
first paragraph states that both a woman who received a
covered vaccine and a child, who was previously in utero at
the time such woman received the vaccine, are “persons”
deemed to have received the vaccine. 42 U.S.C. § 300aa—
11(f)(1). The second paragraph states that the term “child”
shall retain the meaning given that term by subsections
(a) and (b) of section 8 of Title 1. Id. As mentioned above,
1 U.S.C. § 8(a) states that “the words ‘person’, ‘human
being’, ‘child’, and ‘individual’, shall [mean] 2 every infant
member of the species homo sapiens who is born alive3 at
2. In accordance with 42 U.S.C. § 300aa–11(f)(2), “the term
‘include’ in subsection (a) of” 1 U.S.C.A. § 8 has been “replaced with
the term ‘mean.’”
3. “[T]he term ‘born alive’, with respect to a member of the
species homo sapiens, means the complete expulsion or extraction
from his or her mother of that member, at any stage of development,
who after such expulsion or extraction breathes or has a beating
heart, pulsation of the umbilical cord, or definite movement of
voluntary muscles, regardless of whether the umbilical cord has been
cut, and regardless of whether the expulsion or extraction occurs
as a result of natural or induced labor, cesarean section, or induced
abortion.” 1 U.S.C. § 8(b).

18a
Appendix A
any stage of development.” 1 U.S.C. § 8(a). Thus, unlike
other federal legislation in which Congress has explicitly
bestowed special legal status upon children in utero,4 42
U.S.C. § 300aa–11(f) makes clear that the words “person”
or “child,” included therein, retain their 1 U.S.C. § 8(a)
definition. Accordingly, only once it is born may a child
whose mother received a vaccine while they were in utero
be considered a “person” that has received the vaccine.
Appellants also argue that decisions addressing the
status of a child in utero in the context of surviving child
benefits under the Social Security Act support their
claim that A.R. D-C. was present in the United States
before birth under the Vaccine Act. The cases cited by
Appellants dealt with the issue of whether an applicant
met the statutory requirements to be considered a “child”
of a deceased wage earner for purposes of child support
under the Social Security Act. See, e.g., Wagner v. Finch,
413 F.2d 267, 268-69 (5th Cir. 1969) (“The crucial issue
remaining is whether or not this child, conceived outside
of marriage and born after her father’s death, may
nevertheless be deemed to be her father’s child under
42 U.S.C.A. 416(h)(3) of the Act.”). Section 8(a) of Title 1
4. For example, the Unborn Victims of Violence Act, 18 U.S.C.
§ 1841, applies to injurious acts committed against a child in utero,
but, unlike 42 U.S.C. § 300aa–11(f), specifically includes its own
definition of “unborn child” that does not incorporate or refer to the
“born alive” language from 1 U.S.C. § 8’s definition of “person” or
“child” applicable to the Vaccine Act. See 18 U.S.C. § 1841(d) (2018)
(“As used in this section, the term ‘unborn child’ means a child
in utero, and the term ‘child in utero’ . . . means a member of the
species homo sapiens, at any stage of development, who is carried
in the womb.”).

19a
Appendix A
limits the term “child,” as used in all acts of Congress, to
those born alive. As Appellants previously pointed out,
however, this definition should not be construed to affirm,
deny, expand, or contract any legal status or legal right
applicable to any member of the species homo sapiens
at any point prior to being “born alive.” 1 U.S.C. § 8(c).
As such, it cannot abridge any legal status afforded to
unborn children under the Social Security Act, which
has its own, separate, definition of “child” that does not
include any requirement that they be “born alive.” See 42
U.S.C. § 416(e). As discussed above, no similar legal right
applicable to fetuses exists under the Vaccine Act. For at
least these reasons, we agree with the Government that
the Social Security Act and its implementing regulations
are entirely distinct and separate from the Vaccine
Act, and the interpretation of the Social Security Act’s
language has no bearing on the language included in the
Vaccine Act.
For the foregoing reasons, we hold that 1 U.S.C. § 8’s
definition of “person” applies to that term as it is used
in the Vaccine Act. Accordingly, we find that the Claims
Court’s assumption that A.R. D-C. was a “person” with a
prior presence in the United States was legally improper,
and agree with the Special Master that A.R. D-C., while
living and breathing outside of his mother’s body, was
never present in the United States before his vaccinations
and, thus, that his entrance to the United States cannot
be construed as a “return.”

20a
Appendix A
II. A.R. D-C. Had Not “Returned to the United
States” Within the Meaning of the Vaccine Act
Even if A.R. D-C. could be recognized as a “person”
who was present in the United States before vaccination,
and the Claims Court’s assumption was correct, the
parties still disagree as to whether A.R. D-C. “returned
to the United States” within six months of his vaccinations.
§ 300aa–11(c)(1)(B)(i)(III). The Claims Court denied
Appellants’ Motion for Review after finding “nothing to
suggest that Congress meant to cover” those, like A.R.
D-C., who only travel to “the United States for the purpose
of seeking medical treatment when it used the word
‘return’ in the Vaccine Act.” Dupuch-Carron, 144 Fed.
Cl. at 666. For the reasons discussed herein, we agree.
The scope of the Vaccine Act does not, generally,
extend beyond the borders of the United States. The Act
itself refers to a “national” vaccine injury compensation
program, and 42 U.S.C. § 300aa–11(c)(1)(B)(i)(I) broadly
provides that anyone, including temporary visitors, who
received a scheduled vaccine “in the United States or in
its trust territories,” are eligible to seek compensation
under the Act. The legislative history, moreover, does not
address any concern for the continued supply of vaccines
outside the United States or the compensation of nonresidents of the United States, save for two exceptions.
See McGowan, 31 Fed. Cl. at 739. First, families of citizens
who were employees of the United States or members of
the armed forces can petition for compensation under the
Vaccine Act, even if the vaccine was received outside the
United States or its territories. 42 U.S.C. § 300aa–11(c)(1)

21a
Appendix A
(B)(i)(II). Second, as noted above, anyone who received a
vaccine made in the United States and who subsequently
returned to the United States not later than six months
after the vaccination can petition for compensation under
the Vaccine Act. 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III).
These exceptions, by their wording, apply only to those
who previously had some degree of presence in the United
States prior to leaving and, in the case of § 300aa–11(c)(1)
(B)(i)(III), “returned.”
On appeal, as below, Appellants argue that both the
Special Master and the Claims Court inappropriately
interpreted the word “return” because “[t]he relevant
language of the Vaccine Act is not ambiguous,” and the
Special Master and Claims Court’s interpretations of
“return” do not comport with the “ordinary meaning” of
the word (i.e. “to come or go back to”). Dupuch-Carron,
144 Fed. Cl. at 664; see also, e.g., Appellants’ Br. 18.
Appellants contend that failing to apply the “ordinary
meaning” of the word is inconsistent with the Supreme
Court’s unanimous holding in Sebelius v. Cloer, which
stated that “[u]nless otherwise defined, statutory terms
are generally interpreted in accordance with their
ordinary meaning.” 569 U.S. 369, 376-77, 133 S. Ct. 1886,
185 L. Ed. 2d 1003 (2013) (quoting BP Am. Prod. Co. v.
Burton, 549 U.S. 84, 91, 127 S. Ct. 638, 166 L. Ed. 2d 494
(2006)). 5 Therefore, Appellants argue, under the plain
meaning of the unambiguously used definition of “return,”
they should be allowed to maintain their claim.
5. On June 17, 2020, counsel for Appellants also submitted a
Citation of Supplemental Authority pursuant to Fed. R. App. P. 28(j),
which cited, as support, the Supreme Court’s decision in Bostock v.
Clayton County, 590 U.S. , 140 S. Ct. 1731, 207 L. Ed. 2d 218 (2020).

22a
Appendix A
Before the Claims Court, the Government did not
dispute Appellants’ understanding of the “plain meaning”
of “return,” but instead argued that because such an
interpretation, under the Vaccine Act, would lead to
“absurd results,” the plain meaning rule should not apply
and that the court must look to the context surrounding
the phrase “returned to the United States.” According to
the Government, as construed in McGowan, 31 Fed. Cl.
at 740,6 “return” does not mean a temporary visit, but an
arrival “with the intention to remain permanently from
that point on.” Dupuch-Carron, 144 Fed. Cl. at 664.
The Claims Court declined to adopt the reading of
the statute advanced by the Government, in reliance
on McGowan, that “return” must include an intent to
establish permanent residence in the United States.
Nonetheless, the Claims Court found that “the term
6. The decisive issue in McGowan was the meaning of the word
“return” in the relevant provision of the Vaccine Act. 31 Fed. Cl. at
738. The petitioner, who was born in the United States, received
two vaccinations in Canada, where she resided and where her father
was receiving medical training. Id. at 736. Within six months of
her August 20, 1965 vaccination, the petitioner entered the United
States to visit her maternal grandparents. Id. On October 1, 1990,
the petitioner filed an application for compensation under the Vaccine
Act, arguing that she suffered encephalopathy as a result of her
August 20, 1965 measles vaccine. Id. As framed by the Claims Court,
the question “regarding the definition of ‘return’ is whether there is
a sense of permanence inherent in the word.” Id. The Claims Court
found that simple dictionary definitions of “return” “shed little light
on the issue,” id., and, after canvassing the legislative history of
the Vaccine Act, held “[a]n injured person who does not intend to
return to live in the United States should not be able to petition for
a claim,” id. at 739.

23a
Appendix A
‘return’ must be limited by its context to avoid absurd
results,” and held that more is needed than the transient
presence allowable under Appellants’ overbroad reading of
the word “return.” Id. at 666. On appeal, the Government,
dropping its reliance on McGowan, argues that the Claims
Court is correct. We agree.
Applying the broadest meaning to the phrase
“returned to the United States,” as argued by Appellants,
invites absurd results inconsistent with the statute’s
context. Take, for example, a French citizen, resident
in France, who flew from Paris, France to Tokyo, Japan
with a one-day stopover in New York, who then returned
to France and received a vaccination. The fact that
within six months of the vaccination, the French citizen
again stopped for a day in New York on his way to Tokyo,
Japan would permit him to submit a Vaccine Act claim
under Appellants’ broad reading of the statute. Both the
Supreme Court and this court, however, have repeatedly
held over the years that “[i]f a literal construction of the
words of a statute be absurd, the act must be so construed
as to avoid the absurdity.” Holy Trinity Church v. United
States, 143 U.S. 457, 460, 12 S. Ct. 511, 36 L. Ed. 226 (1892);
see also Cloer, 569 U.S. at 377 n.4 (avoiding statutory
interpretation that would produce an “absurd result”);
Milavetz, Gallop & Milavetz, P.A. v. United States, 559
U.S. 229, 252, 130 S. Ct. 1324, 176 L. Ed. 2d 79 (2010)
(declining to “adopt a view of the statute that . . . would
produce an absurd result”); Pub. Citizen v. U.S. Dep’t
of Justice, 491 U.S. 440, 454, 109 S. Ct. 2558, 105 L. Ed.
2d 377 (1989) (“Where the literal reading of a statutory
term would ‘compel an odd result,’ we must search for

24a
Appendix A
other evidence of congressional intent to lend the term
its proper scope.” (quoting Green v. Bock Laundry
Mach. Co., 490 U.S. 504, 509, 109 S. Ct. 1981, 104 L. Ed.
2d 557 (1989))); Haggar Co. v. Helvering, 308 U.S. 389,
394, 60 S. Ct. 337, 84 L. Ed. 340, 1940-1 C.B. 237 (1940)
(explaining that a reading of a statute that “would lead
to absurd results is to be avoided when [it] can be given
a reasonable application consistent with [its] words and
with the legislative purpose”); Pitsker v. Office of Pers.
Mgmt., 234 F.3d 1378, 1383 (Fed. Cir. 2000) (finding Office
of Personnel Management’s statutory interpretation
violated “the canon of statutory construction that an
interpretation that causes absurd results is to be avoided if
at all possible”); Timex V.I., Inc. v. United States, 157 F.3d
879, 887 (Fed. Cir. 1998) (finding that where “statutory
construction frustrates Congress’s intent, encourages
undesirable behavior, and produces absurd results,” it
should “be avoided, not rubber-stamped”).
When construing a statutory term or phrase to
avoid an absurd result, or when the term or phrase is
“ambiguous,” it “must be read in [its] context and with
a view to [its] place in the overall statutory scheme.”
Colonial Press Int’l, Inc. v. United States, 788 F.3d 1350,
1357 (Fed. Cir. 2015) (quoting Davis v. Mich. Dep’t of
Treasury, 489 U.S. 803, 809, 109 S. Ct. 1500, 103 L. Ed. 2d
891 (1989)); see also Wassenaar v. Office of Pers. Mgmt., 21
F.3d 1090, 1092 (Fed. Cir. 1994) (stating that “[a] reading
of [a statute] which would lead to absurd results is to be
avoided when [it] can be given a reasonable application
consistent with [its] words and legislative purpose”).
Indeed, with respect to the language at issue in this case,

25a
Appendix A
Appellants’ counsel acknowledged at oral argument that
“the factual context of the person’s prior presence in the
United States and subsequent return is relevant.” See
Oral Arg. at 4:25-43, http://oralarguments.cafc.uscourts.
gov/default.aspx?fl=20-1137.mp3. (“It’s necessary to
understand whether or not there was a return.”); see also
id. at 5:53-6:35 (counsel for Appellants equating “return”
with “go back” and acknowledging that “go back” can be
ambiguous). Accordingly, the phrase “returned to the
United States” must be read in its context and with a view
to its place in the overall statutory scheme.
The phrase “returned to the United States,” itself, is
not addressed in any of the legislative history concerning
the Vaccine Act. Thus, the purpose of Congress’ enactment
of the Act must be understood to guide the court’s
understanding of the phrase. See Amendola v. Sec’y of
Dep’t of Health & Hum. Servs., 989 F.2d 1180, 1182 (Fed.
Cir. 1993).7 In Amendola, this court found that “the
motivating factor behind enactment of the [Vaccine Act]
was the desire to protect the vaccine supply by shielding
manufacturers from exposure to liability resulting
from the small but nevertheless statistically significant
incidence of unavoidable injury or death from widespread
use of the vaccine.” Id. at 1186.

7. In Amendola, this court found that because the Vaccine
Compensation Act is a “complex piece of legislation” incorporating
its “legislative purpose,” “the meaning of any particular phrase or
provision,” included therein, “cannot be securely known simply by
taking the words out of context and treating them as self-evident.”
Amendola, 989 F.2d at 1182.

26a
Appendix A
While protection of the United States vaccine supply
was the motivating factor, however, the Vaccine Act’s
limited legislative history makes clear that Congress had
two goals in its enactment. As the Claims Court correctly
noted in McGowan, and is not disputed by the parties here:
The first goal was to “offer fair compensation
to victims” injured in connection with childhood
vaccination programs. H.R. 1780, 99th Cong.,
1st Sess. (1985); S. 827, 99th Cong., 1st Sess.
(1985); H.R. Rep. No. 908, 99th Cong., 2d Sess.,
pt. 1, at 7 (1986), U.S. Code Cong. & Admin.
News 1986, pp. 6287, 6348. The second was to
insure the “continued supply of vaccines that
are vital to the public health.” H.R. 1780; S. 827;
H.R. Rep. No. 908. This second goal is linked
only to the supply of vaccines in the United
States.
Id. at 738-39.
Interpreting the Vaccine Act in view of these goals,
the McGowan court held that 42 U.S.C. § 300aa–11(c)(1)
(B)(i)(III) applies “only to those who previously had lived
in the United States,” id. at 739, and “return[ed] to the
United States within six months of the vaccination date,
with the intention to remain permanently from that point
on,” id. at 740.
Relying on McGowan, the Special Master in this
case dismissed Appellants’ claim after finding that there
was no evidence that A.R. D-C. would have established
a permanent presence in this country. As the Claims

27a
Appendix A
Court found, however, upon review of the Special
Master’s decision, while McGowan’s permanent residence
requirement was too restrictive, more is required of a
“return” than a temporary visit for medical treatment. We
agree with the Claims Court that the permanent residence
requirement is overly restrictive. We nonetheless agree
with the McGowan court that some residence is required
both before leaving and upon “return[] to the United
States” under 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III).
One of the goals of the Vaccine Act was to provide
compensation to those injured in connection w ith
childhood vaccination programs. Congress specifically
noted that vaccination programs are facilitated by state
and local distribution of vaccines, and at the time of the
Act’s passage, state laws mandated that “virtually all”
children be vaccinated “as a condition for entering school.”
H.R. Rep. No. 99-908, 99th Cong., 2d Sess., pt. 1, at 4-7
(1986). It is doubtful that the United States or any state
or local government would have authority to impose
vaccination requirements outside of its own borders (with
the exception of persons applying to immigrate to the
United States). Allowing those currently living outside
the United States, who have not previously lived in the
United States, and who were not injured in connection
with United States vaccination programs, to receive
compensation under the Vaccine Act would not serve the
legislative goal of providing compensation to those injured
in connection with those childhood vaccination programs.
With respect to Congress’s other goal of stabilizing
the vaccine market, Congress undoubtedly intended to
reduce liability for vaccine manufacturers by limiting civil

28a
Appendix A
actions against them from those covered by the Vaccine
Act. See 42 U.S.C. § 300aa–11(a)(2)-(3); see also 42 U.S.C.
§ 300aa–11(a)(9) (“This subsection applies only to a person
who has sustained a vaccine-related injury or death and
who is qualified to file a petition for compensation under
the Program.”). Congress, through the Vaccine Act, has
explicitly mandated that “[i]f a civil action which is barred
under subparagraph (A) is filed in a State or Federal court,
the court shall dismiss the action.” 42 U.S.C. § 300aa–11(a)
(2)(B). The Vaccine Act, however, does not, nor can it,
prevent civil actions against vaccine manufacturers
in other countries. Thus, allowing residents of other
countries, who have not previously resided in the United
States and do not plan on residing in the United States,
and were not injured in connection with United States
vaccination programs, to receive compensation under
the Vaccine Act would not serve the goal of immunizing
United States vaccine manufacturers from suit; those
foreign residents could sue in foreign courts not similarly
prevented from hearing these cases. 8
If Congress wished to provide such broad immunity
as argued by Appellants, it is hard to see why Congress
8. With regard to pending civil actions, the Vaccine Act
manifests a legislative intent to prevent double compensation. See
42 U.S.C.A. § 300aa–11(a)(7) (providing that a damage award, either
by settlement or court action, precludes a Vaccine Act petition);
§ 300aa–11(c)(1)(E) (providing that petitioner must aver in the
petition that he has not previously collected a damage award either
by settlement or court action). We agree with the McGowan court
that logic dictates that Congress would not allow the opportunity
for double compensation when the petitioner could be compensated
outside of the United States. See McGowan, 31 Fed. Cl. at 740 n.3.

29a
Appendix A
disallowed claims by persons who never entered the
United States or entered the United States at some
point before vaccination but did not return again within
six months. We surmise that Congress, in enacting this
section, intended to provide protection for persons who
(1) previously resided in the United States, where they
were subject to United States vaccination programs, (2)
were temporarily away from the United States when they
received the vaccination, and (3) “returned to the United
States” within six months with the intention of resuming
residence therein.
We hold that because A.R. D-C.’s entry into the United
States to receive medical treatment does not fall within
the more narrowly construed meaning of “returned to
the United States” that the Vaccine Act’s broader context
demands, Appellants have not satisfied the requirements
of 42 U.S.C. § 300aa–11(c)(1)(B)(i)(III).
Conclusion
Appellants are not eligible to seek compensation from
the Vaccine Program under 42 U.S.C. § 300aa–11(c)(1)
(B)(i)(III). First, A.R. D-C., while living and breathing
outside of his mother’s body, was never present in the
United States before his vaccinations such that his
entrance to the United States for medical treatment could
be construed as a “return.” Second, even if A.R. D-C. was
a “person” with a prior presence in the United States as a
result of his in utero travel, he never resided in the United
States nor intended to upon his “return.” Thus, we hold
that A.R. D-C. did not “return[] to the United States”

30a
Appendix A
within the meaning of the Vaccine Act. Accordingly, the
Claims Court’s Order denying Appellants’ Motion for
Review is affirmed.
AFFIRMED
Costs
The parties shall bear their own costs.

31a
Appendix
B
APPENDIX B
— OPINION
OF THE
UNITED STATES COURT OF FEDERAL
CLAIMS, FILED SEPTEMBER 10, 2019
UNITED STATES COURT
OF FEDERAL CLAIMS
No. 17-1551V
ROBERT DAVID DUPUCH-CARRON
AND ELIZABETH JOANNA CARRON,
AS THE LEGAL REPRESENTATIVES
OF THEIR MINOR SON, A.R. D-C.,
Petitioners,
v.
SECRETARY OF HEALTH
AND HUMAN SERVICES,
Respondent.
Filed under seal: September 10, 2019
Reissued for Public Availability:
September 25, 2019 1

1. Pursuant to Vaccine Rule 18(b), this opinion was initially
filed on September 10, 2019, and the parties were afforded 14 days
to propose redactions. The parties did not propose any redactions.
Accordingly, this opinion is reissued in its original form for posting
on the Court’s website.

32a
Appendix B
Statutory interpretation; National Vaccine Injury
Compensation Act, 42 U.S.C. §§300aa-1 et seq.; the
Vaccine Act; 42 U.S.C. § 300aa-11(c)(1)(B)(i); Return
MEMORANDUM OPINION
HERTLING, Judge
The petitioners, Robert David Dupuch-Carron and
Elizabeth Joanna Carron, husband and wife, are the
legal representatives of the estate of their deceased son,
A.R. D-C. They filed this action seeking compensation
for injuries allegedly compensable under the National
Vaccine Injury Compensation Act, 42 U.S.C. §§ 300aa-1
et seq. (“the Vaccine Act”). On the parties’ cross-motions
for summary judgment, the Special Master ruled that the
petitioners are ineligible to receive compensation under
the Vaccine Act, granted the respondent’s motion, and
dismissed the petition. See Dupuch-Carron v. Sec’y of
Health & Human Servs., 2019 WL 22663369 (“DupuchCarron”). The petitioners filed this motion for review
pursuant to 42 U.S.C. § 300aa-12(e).
I.

Facts

A brief recitation of the facts provides necessary
context. 2
2. Because the Special Master granted summary judgment, he
necessarily determined that no material facts were in dispute. As
the undisputed facts have not changed, the Court’s recitation of the
background facts herein draws from the Special Master’s opinion
in Dupuch-Carron.

33a
Appendix B
The petitioners were domiciled in Nassau, The
Bahamas, for the entirety of the time period relevant to
this case. Ms. Carron is a citizen of the United Kingdom
and avers that she is a “frequent visitor to the United
States,” spending “10 to 12 long weekends” in the country
each year. During a trip to Coral Gables, Florida from
March 24 to April 3, 2015, Ms. Carron visited an internist,
who informed her that she was pregnant. After learning
she was pregnant with A.R. D-C, she claims to have
traveled to the United States an additional four times
over the course of her pregnancy.
Mr. Dupuch-Carron was born in the United States.
His citizenship is not noted in the record. He appears to
have grown up in The Bahamas but recalls “spen[ding] a
great deal of time [in the United States] as a child during
the summer holidays.” Mr. Dupuch-Carron avers that
he is a “frequent visitor to the United States,” spending
“between 30 and 45 days in the United States on business”
in a typical year.
A.R. D-C was born on November 24, 2015, at Doctors
Hospital in Nassau, The Bahamas. He continued to live in
Nassau for the first six months of his life. During his first
six months, A.R. D-C had unremarkable well-child visits
at Precious Posterity Pediatric Centre in Nassau, and
was considered to be healthy and developing normally. He
also received his first two sets of vaccinations in Nassau,
apparently with no adverse consequences.
On June 23, 2016, during his six-month well-child
visit to his pediatrician in Nassau, A.R. D-C received his
third set of vaccinations, which included the DTap, IPV,

34a
Appendix B
HIB, HBV, Prevnar, and rotavirus vaccinations. There
is no dispute that the eight vaccines A.R. D-C received
during his June 23rd visit to the pediatrician are listed
in the Vaccine Injury Table and were manufactured by
companies with a presence in the United States.
On July 7, 2016 and July 9, 2019, A.R. D-C presented
at the pediatrician with complaints of a fever greater that
102 degrees Fahrenheit, crankiness, stuffy nose, rattling
in his chest, occasional chesty coughs, reduced activity,
vomiting, and diarrhea. On July 10, 2016, A.R. DC’s parents
brought him to the emergency room at Doctors Hospital in
Nassau with complaints of fever and vomiting for five days,
irritability, and decreased appetite. The doctors determined
he had thrombocytopenia 3 and pancytopenia4 for which he
received a blood transfusion, and febrile neutropenia5 for
which he was given an intravenous antibiotic. On July 11,
2016, A.R. D-C was transferred to the intensive care unit
at Princess Margaret Hospital in Nassau, where a pediatric
hematologist—oncologist recommended he be transferred
to an institution “equipped to enable quick turn around and
confirmation of the leukemia if present.”6
3. Thrombocytopenia is defined as a “decrease in the number
of platelets.” Dorland’s Illustrated Medical Dictionary 1069 (32nd
ed. 2012) (“Dorland’s”) at 1922.
4. Pancytopenia is defined as a “deficiency of all cellular
elements of the blood.” Dorland’s at 1368.
5. Neutropenia is “an abnormal decrease in the number of
neutrophils in the blood, with the absolute neutrophil count being
less than 1500/μL.” Dorland’s at 1272.
6. Leukemia is “a progressive, malignant disease of the
blood-forming organs, characterized by distorted proliferation and

35a
Appendix B
Physicians in The Bahamas determined that A.R. D-C
would receive better treatment in the United States, and on
July 13, 2016, A.R. D-C was transferred by air ambulance
to Nicklaus Children’s Hospital in Miami, Florida, where
he was diagnosed with hemophagocytic lymphohistiocytosis
(“HLH”).7 HLH is an autoimmune disease of the blood, fatal
unless treated successfully. A.R. D-C was treated at Nicklaus
Children’s Hospital until he was discharged on August 12,
2016, “on the condition he remain in Florida as an outpatient.”
A.R. D-C continued weekly treatment with Dr.
Maggie Fader as an outpatient at Nicklaus Children’s
Hospital. A.R. D-C was cleared to leave the United States
over the Christmas season, so the family returned to The
Bahamas. On February 28, 2017, A.R. D-C was readmitted
to Nicklaus Children’s Hospital. He was diagnosed with
acute myeloid leukemia (“AML”). 8 A.R. D-C underwent
treatment, which included chemotherapy 9 and radiation10
development of leukocytes and their precursors in the blood and
bone marrow.” Dorland’s at 1026.

7. Hemophagocytic lymphohistiocytosis is “any of several closely
related disorders involving both lymphocytosis and histiocytosis,
with excessive hemophagocytosis in the lymphoreticular system or
the central nervous system.” Dorland’s at 1085.
8. Acute myeloid leukemia, also known as acute myeloblastic
leukemia or acute myelogenous leukemia, is “a common kind of
acute myelogenous leukemia, in which myeloblasts predominate.”
Dorland’s at 1026.
9. Chemotherapy is “the treatment of a disease by chemical
agents.” Dorland’s at 341.
10. Radiation is “energy transmitted by waves through space
or through some medium; usually referring to electromagnetic
radiation when used without a modifier.” Dorland’s at 1570.

36a
Appendix B
at Cincinnati Children’s Hospital in Cincinnati, Ohio,
as well as a bone-marrow transplant at Johns Hopkins
Bloomberg Children’s Hospital in Baltimore, Maryland.
On October 17, 2017, the petitioners filed a claim under
the Vaccine Act. On December 24, 2017, A.R. D-C died
from AML, and on March 26, 2018, the petitioners filed an
amended petition, alleging that the AML, which caused
A.R. D-C’s death, was a complication resulting from the
treatment he had received for his vaccine-induced HLH.
II. Procedural History
Prior to the filing of the amended petition, the Special
Master had identified as a threshold question the issue of
whether the petitioners were eligible for compensation
under the Vaccine Act because the vaccines were
administered outside of the United States. The Special
Master directed the parties to file cross-motions for
summary judgment on that limited issue.
On March 26, 2018, concurrent with their filing of
the amended petition, the petitioners filed their Motion
for Partial Summary Judgment on the limited issue of
their eligibility under the Vaccine Act for compensation.
On June 7, 2018, the respondent filed its Cross-Motion for
Summary Judgment on that threshold issue. Petitioners
filed their Response and Reply on July 12, 2018. On April
23, 2019, the Special Master denied the petitioners’ Motion
and granted the respondent’s.
On May 23, 2019, the petitioners filed a Motion for
Review of the Special Master’s decision, asking this Court

37a
Appendix B
to review and reverse the Special Master’s decision. In
their Motion for Review, the petitioners raise the following
single numbered objection:
The special master’s conclusion that the
petitioners were not eligible to seek compensation
from the National Vaccine Injury Compensation
Program because their son [A.R. D-C]: 1) could
not be viewed as a person who was present in
the United States prior to his vaccinations;
and 2) had not returned to the United States
within six months after vaccinations was not in
accordance with the law.
The respondent filed its Response to the petitioners’
Motion for Review on June 20, 2019, arguing that the
Special Master’s decision on the petitioners’ eligibility
to seek compensation under the Vaccine Act was correct.
With the Court’s leave, the petitioners filed their Reply
on July 5, 2019. The Court heard oral argument on the
petitioners’ Motion for Review on September 5, 2019.
III.

Standard of Review

Under the Vaccine Act, this Court may review a
Special Master’s decision upon the timely request of either
party. See 42 U.S.C. § 300aa-12(e)(1)-(2). The Court may:
“(A) uphold the findings of fact and conclusions of law . . .,
(B) set aside any findings of fact or conclusion of law . . .
found to be arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law . . ., or, (C) remand
the petition to the special master for further action in
accordance with the court’s direction.” Id. § 300aa-12(e)

38a
Appendix B
(2)(A)-(C). Findings of fact and discretionary rulings are
reviewed under an “arbitrary and capricious” standard,
while legal conclusions are reviewed de novo. Munn v.
Sec’y of Health & Human Servs., 970 F.2d 863, 870 n.10
(Fed. Cir. 1992); see also Doyle ex rel. Doyle v. Sec’y of
Health & Human Servs., 92 Fed. Cl. 1, 5, n.8 (2010).
The sole issue in this case is whether the petitioners,
who are not domiciled in the United States, and whose
son received the allegedly injurious vaccines outside of
the United States, are eligible to bring a claim under the
Vaccine Act. This question requires the Court to interpret
the relevant provisions of the Vaccine Act. As a question
of law, an issue of statutory interpretation is subject to de
novo review. Black v. Sec’y of Health & Human Servs., 33
Fed. Cl. 546, 549 (1995) (collecting cases).
IV. Discussion
A.

Relevant Statutory Provisions

The Vaccine Act, 42 U.S.C. § 300aa-11(c)(1)(B)(i),
delimits the categories of persons who may pursue a claim
under it. Pursuant to the relevant provision, the party
seeking compensation under the Act must show that he:
(I)

received the vaccine in the United States
or in its trust territories;

(II) received the vaccine outside the United
States or a trust territory and at the time
of the vaccination such person was a citizen

39a
Appendix B
of the United States serving abroad as a
member of the Armed Forces or otherwise
as an employee of the United States or a
dependent of such a citizen; or
(III) received the vaccine outside of the
United States or a trust territory and the
vaccine was manufactured by a vaccine
manufacturer located in the United States
and such person returned to the United
States not later than 6 months after the
date of the vaccination.
Id. (emphasis added).
The petitioners do not claim that either 42 U.S.C.
§ 300aa-11(c)(1)(B)(i)(I) or § 300aa-11(c)(1)(B)(i)(II) is
applicable to this case. Therefore, the question before
the Court is whether 42 U.S.C. § 300aa-11(c)(1)(B)(i)(III)
allows the petitioner, under the specific facts of this case,
to receive compensation under the Vaccine Act.
B. The McGowan Decision
McGowan v. Secretary of the Department of Health
& Human Services is the only relevant judicial precedent.
31 Fed. Cl. 734 (1994). In McGowan, the petitioner, who
was born in the United States, received two vaccinations
in Canada, where she resided and where her father was
receiving medical training. Id. at 736. Within six months
of her August 20, 1965 vaccination, the petitioner entered
the United States to visit her maternal grandparents.

40a
Appendix B
Id. She received her second vaccine in Canada in late
December 1965. Id. In April 1967, the petitioner and her
parents returned permanently to the United States. Id.
On October 1, 1990, the petitioner filed an application
for compensation under the Vaccine Act, arguing that she
suffered encephalopathy as a result of her August 20, 1965
measles vaccine.11 Id. The Special Master dismissed the
petitioner’s claim, finding that she had failed to prove, by
a preponderance of the evidence, that she had returned
to the United States within six months of her August
20, 1965 measles vaccination. Id. On review, this Court
sustained the Special Master’s decision, holding that the
“petitioner has failed to ‘return’ within the meaning of
42 U.S.C. § 300aa-11(c)(1)(B)(i)(III) and fails to meet the
jurisdictional requirements of the Vaccine Act.” Id. at 740.
Just as in this case, the decisive issue in McGowan was
the meaning of the word “return” in the relevant provision
of the Vaccine Act. 31 Fed. Cl. at 738. As framed by the
Court, the question “regarding the definition of ‘return’
is whether there is a sense of permanence inherent in the
word.” Id. There, as here, the “[p]etitoner argue[d] that
a return is completed with the initial entry,” while the
respondent contended that “a ‘return’ requires at least an
intention to remain, from that moment on, as a permanent
resident of the United States.” Id.
The McGowan Court found that the simple dictionary
definitions of “return” “shed little light on the issue.” Id.
11. Encephalopathy is defined as “any degenerative disease of
the brain.” Dorland’s at 614.

41a
Appendix B
Instead, the Court canvassed the legislative history of the
Vaccine Act to determine the legislative purpose behind
its enactment. The Court identified two goals underlying
the Act’s implementation. The first was “to ‘offer fair
compensation to victims’ injured in connection with
childhood vaccination programs[.]” Id. (quoting H.R. 1780,
99th Cong., 1st Sess. (1985); S. 827. 99th Cong., 1st Sess.
(1985); H.R. Rep. No. 99-908 pt. 1 at 7 (1986), reprinted
in 1986 U.S.C.C.A.N. 6344, 6367). The second was “to
insure the ‘continued supply of vaccines that are vital to
the public health.’” Id. at 739 (quoting same).
In interpreting 42 U.S.C. § 300aa-11(c)(1)(B)(i)(III),
the McGowan Court held “[a]n injured person who does
not intend to return to live in the United States should
not be able to petition for a claim.” 31 Fed. Cl. at 739. The
Court further held that “[t]o rule that ‘return’ means
simply to physically enter the United States is to invite
absurd scenarios.” Id. (citing Hellebrand v. Sec’y of Dep’t
of Health & Human Servs., 999 F.2d 1565, 1570-71 (Fed.
Cir. 1993)) (“[A] court should seek to avoid construing a
statute in a way which yields an absurd result and should
try to construe a statute in a way which is consistent
with the intent of Congress.”). Ultimately, the Court held
that “[a]s Congress meant that ‘return’ would mean a
permanent return, an injured person must return to the
United States within six months of the vaccination date,
with the intention to remain permanently from that point
on, in order to be able to participate in the compensation
program.” Id. at 740.

42a
Appendix B
C.

Analysis

The crux of the petitioners’ claim at this stage of
the case centers on whether A.R. D-C “returned” to
the United States within six months of his receipt of
the vaccine, pursuant to 42 U.S.C. § 300aa-11(c)(1)(B)(i)
(III).12 The petitioners argue that the Special Master
inappropriately interpreted the word “return” because
“[t]he relevant language of the Vaccine Act is not
ambiguous,” and the Special Master’s interpretation of
“return” does not comport with the “ordinary meaning”
of the word. In making that argument, the petitioners
point to the Oxford English Dictionary, which defines
“return” as “to come or go back to a place or person.” Id.;
see also Return, OXFORD ENGLISH DICTIONARY (2d
ed. 1989). The petitioners contend that failing to apply the
“ordinary meaning” of the word is “clearly inconsistent
with the Supreme Court’s unanimous holding in Sebelius
12. The petitioners also raise the argument that a child in utero
is a “person” for the purposes of the Vaccine Act. The Vaccine Act
considers a child whose mother receives a vaccine while the child is in
utero to be a “person” for the purposes of the Vaccine Act. 42 U.S.C.
§ 300aa-11(f)(1) (“[F]or the purposes of this subpart, both a woman
who received a covered vaccine while pregnant and any child who
was in utero at the time such a woman received the vaccine shall be
considered persons to whom the covered vaccine was administered
and persons who received the covered vaccine.”). While the Court
need not decide the question, it assumes, for the purposes of its
analysis, that A.R. D-C was a “person” under the relevant portions
of the Vaccine Act, with a prior presence in the United States. The
sole issue requiring analysis to resolve the case is whether A.R. D-C’s
arrival in Miami for medical treatment constituted a “return” to the
United States within six months of his vaccination.

43a
Appendix B
v. Cloer.” See Sebelius v. Cloer, 569 U.S. 369, 376-77,
133 S. Ct. 1886, 185 L. Ed. 2d 1003 (2013) (“As in any
statutory construction case, this Court proceeds from the
understanding that ‘[u]nless otherwise defined, statutory
terms are generally interpreted in accordance with their
ordinary meaning.’”) (quoting BP America Production
Co. v. Burton, 549 U.S. 84, 91, 127 S. Ct. 638, 166 L. Ed.
2d 494 (2006)). Therefore, the petitioners argue, under
the plain meaning of the unambiguously used definition of
“return,” they should be allowed to maintain their claim.
The respondent rejects the petitioners’ interpretation
of “return,” instead arguing that, under the Vaccine Act,
as construed in McGowan, 31 Fed. Cl. at 740, “return”
does not mean a temporary visit, but an arrival “with the
intention to remain permanently from that point on.” The
respondent relies on the Court’s decision in McGowan
in making that argument.13 While the respondent does
not reject the petitioners’ understanding of the “plain
13. The respondent also argues that, because A.R. D-C was
born in The Bahamas and never lived in the United States after birth,
he could not “return” to the United States. Thus, the respondent
posits that A.R. D-C’s first entry into the United States occurred on
July 13, 2016, when he arrived for medical treatment. The respondent
similarly rejects the petitioners’ argument that A.R. D-C’s mother’s
occasional visits during her pregnancy were sufficient to establish
that he was “present” in the United States for the purpose of the
Vaccine Act. While these arguments were raised by the respondent,
the Court does not believe it necessary to address whether A.R.
D-C’s in utero visits constituted presence in the United States,
because such a determination would, in and of itself, not be dispositive
of the case. Instead, the Court’s decision turns on whether A.R. D-C’s
arrival in the country for medical treatment constituted a “return”
sufficient to satisfy the Vaccine Act, assume the in utero visits were
A.R. D-C’s initial entries into the country.

44a
Appendix B
meaning” of “return,” the respondent argues that,
to qualify for Vaccine Act compensation, a “return”
necessarily requires a sense of permanence. Because
the word ‘return’ relies on its context in order to impart
a sense of permanence, the respondent argues, the plain
meaning rule is not dispositive.
Thus, this case turns on whether A.R. D-C’s arrival for
medical treatment constitutes “return” for the purposes
of the act’s exception to its requirement that claimants be
vaccinated in the United States.
As in any case involving statutory interpretation, the
Court’s analysis must begin with the words employed by
the legislature. See, e.g., Lewis v. United States, 445 U.S.
55, 60, 100 S. Ct. 915, 63 L. Ed. 2d 198 (1980) (“[I]n any case
concerning the interpretation of a statute the ‘starting
point’ must be the language of the statute itself.”); see
also Reiter v. Sonotone Corp., 442 U.S. 330, 337, 99 S. Ct.
2326, 60 L. Ed. 2d 931 (1979) (“As is true in every case
involving the construction of a statute, our starting point
must be the language employed by Congress.”). Such an
inquiry requires that the Court analyze the legislature’s
words in accordance with both their ordinary meaning and
within the context of the statutory scheme surrounding
their implementation. No single word or phrase should be
wrenched from its context and interpreted in a vacuum.
See Holihan v. Secretary of HHS, 45 Fed. Cl. 201, 205
(1999) (“A statute is to be read as an undivided whole, not
a collection of disparate clauses.”). To do so would defeat
the purpose of the judicial enterprise, which is to interpret
the law applicable to a particular case in accordance with
what the legislature wrote as a whole.

45a
Appendix B
As to the ordinary meaning of “return,” this Court
agrees with McGowan that dictionary definitions of the
word shed little light on what the word means in the
Vaccine Act. See 31 Fed. Cl. at 738. While this Court does
not necessarily agree with McGowan that a “return”
must be permanent, id. at 740, this Court recognizes that
applying the broadest meaning to the term as argued
by the petitioners invites absurd results inconsistent
with the statute’s context. See id. at 739. For instance,
if a French citizen, resident in France, vacationed in the
United States, then returned to France and received
a vaccination there, the fact that one week later, the
French citizen stopped in New York to change planes
on his way to Mexico would permit him to submit a
Vaccine Act claim under the petitioners’ broad reading
of “return.” It is inconceivable that Congress’s use of
the term “return” in the Act was meant to extend the
benefits of the Vaccine Injury Compensation Program to
this scenario. That application produces an absurd result
even if “return” might ordinarily be used this way in other
contexts. See United States v. Kirby, 74 U.S. 482, 486-87,
19 L. Ed. 278 (1868) (“All laws should receive a sensible
construction. General terms should be so limited in their
application as not to lead to injustice, oppression, or an
absurd consequence.”). What counts as a “return” for the
Vaccine Act must have some limit, but the term’s range of
ordinary meanings requires the Court to look to context
for further clues.
The context surrounding the term “return” suggests
that “return” means something more than a nonresident
prior visitor’s temporary entry for medical treatment. The
term is used in a gatekeeping provision that waives the

46a
Appendix B
government’s sovereign immunity, and without any explicit
language calling for the Vaccine Act’s extraterritorial
application.
First, the Federal Circuit has described the section
containing the statutory provision at issue, 42 U.S.C.
§ 300aa-11, as a “gate-keeping” provision, which a
petitioner must satisfy to maintain a Vaccine Act claim.
Amendola v. Secretary, HHS, 989 F. 2d 1180, 1182 (Fed.
Cir. 1993). Indeed, 42 U.S.C. § § 300aa-11(c)(1)(B)(i)(III),
operates as a limitation on coverage.
Second, the Vaccine Act operates as a limited waiver
of sovereign immunity. Therefore, its provisions must be
given a “strict and narrow construction.” Holihan, 45
Fed. Cl. at 207; see also Grice v Sec’y of Health & Human
Servs., 36 Fed. Cl. 114, 120 (1996) (“[T]he Vaccine Act is a
limited waiver of sovereign immunity.”). Moreover, when
Congress waives sovereign immunity, any ambiguities
in the statute must be resolved in favor of the federal
government as the sovereign. Holihan, 45 Fed. Cl. at
208. Thus, it would be inconsistent with the purpose
of 42 U.S.C. § § 300aa-11(c)(1)(B)(i)(III) to accept the
petitioners’ unlimited reading of “return,” expanding
the Vaccine Act’s waiver of sovereign immunity to claims
from individuals with no or few meaningful ties to the
United States.
Third, there is no indication in the statute that
Congress intended to apply the Vaccine Act outside of the
United States.14 Unless Congress is explicit in seeking to
14. The Vaccine Act makes clear that it covers vaccines provided
in the United States, and vaccines administered abroad to United

47a
Appendix B
extend the extraterritorial effect of a legislative act, the
presumption must be that a statute only has domestic
application. Kiobel v. Royal Dutch Petroleum Co., 569
U.S. 108, 115, 133 S. Ct. 1659, 185 L. Ed. 2d 671 (2013);
Morrison v. Nat’l Austl. Bank Ltd., 561 U.S. 247, 255,
130 S. Ct. 2869, 177 L. Ed. 2d 535 (2010); Microsoft Corp.
v. AT&T Corp., 550 U.S. 437, 454, 127 S. Ct. 1746, 167 L.
Ed. 2d 737 (2007); E.E.O.C. v. Arabian Am. Oil Co., 499
U.S. 244, 248, 111 S. Ct. 1227, 113 L. Ed. 2d 274 (1991).15
The Court has canvassed the entire statutory text and
legislative history of the Vaccine Act. There is not a single
hint that Congress was thinking about compensating
individuals vaccinated outside of the United States who
lacked ties to the country.
Moreover, the Vaccine Injury Compensation Program’s
funding structure, set out in the Vaccine Act, also suggests
that Congress did not explicitly seek for the Act to have
extraterritorial application. Congress funded the Vaccine
Program through an excise tax of seventy-five cents
($0.75) per sale of a taxable vaccine that is manufactured
or produced in the United States, or enters the United
States “for consumption, use, or warehousing.” 26
U.S.C. §§ 4132, 4131(b)(1). Vaccines sold or re-sold “for
States citizens. 42 U.S.C. § 300aa-11(c)(1)(B)(i)(I), (II). This context
in which Congress actually restricted the remedies in the Vaccine Act
to some Americans receiving vaccines abroad supports the inference
that Congress had in mind United States persons as it thought about
the potential beneficiaries of the Vaccine Act.

15. Kiobel, for example, applied the presumption against
extraterritorial effect to a statute enacted in 1789; a fortiori the
presumption also applies to a statute enacted in 1986.

48a
Appendix B
export . . . to a foreign country” are exempt from the tax.
See INTERNAL REVENUE SERV., Pub. 510: Excise
Taxes (rev. Mar. 2018; last visited Sept. 5, 2019) http://
www.irs.gov/publications/p510. Thus, the Vaccine Injury
Compensation Program is funded by excise taxes on
domestic manufacturers and producers, suggesting that
Congress intended to limit that Program to domestic
claims, with limited exceptions. Here again, an expansive
definition of “return” could work against one of the key
goals underlying the Vaccine Act, ensuring the supply of
vaccines, by expanding the potential class of beneficiaries
without adequate financial support for the program.
In sum, the term “return” must be limited by its
context to avoid absurd results. The Act’s waiver of
sovereign immunity is strictly and narrowly construed—a
principle with which the Court must assume Congress was
familiar when it enacted the Vaccine Act. Nothing in the
Act or its legislative history overcomes the presumption
against extraterritoriality, and the coverage-expanding
results of the petitioners’ interpretation are inconsistent
with the Act’s funding and coverage-limiting provisions.
The petitioners’ unlimited reading of the word “return”
must be rejected.
Because of the quality of medical care available in
this country, foreign nationals from countries with fewer
medical resources often avail themselves of advanced or
specialized treatment in the United States. Congress
would have been familiar with this phenomenon.16
16. For example, several years before Congress considered the
Vaccine Act, the former Shah of Iran sought medical treatment in

49a
Appendix B
In light of the silence in the legislative record and
the presumptions attendant to the task of statutory
interpretation in this case, the Court finds nothing to
suggest that Congress meant to cover foreign nationals
arriving in the United States for the purpose of seeking
medical treatment when it used the word “return” in the
Vaccine Act.
This holding is narrower than the rule adopted in
McGowan. The Court declines to adopt the reading
of the statute advanced by the respondent, in reliance
on McGowan, that “return” must include an intent to
establish permanent residence in the United States
because it is broader than necessary to resolve this case.
V. Conclusion
Because A.R. D-C’s entry into the United States to
receive medical treatment did not fall within the more
specific meaning of “return to the United States” that the
Vaccine Act’s broader context demands, he has therefore
not satisfied the requirements under 42 U.S.C. § 300aa11(c)(1)(B)(i)(III). The Court has no choice but to deny the
petitioners’ Motion for Review.
/s/ Richard A. Hertling
Richard A. Hertling
Judge

the United States, triggering strong reactions in Iran, including the
seizure of the U.S. Embassy and the taking of hostages.

50a
Appendix
C
APPENDIX C
— OPINION
OF THE
UNITED STATES COURT OF FEDERAL
CLAIMS, FILED APRIL 23, 2019
UNITED STATES COURT
OF FEDERAL CLAIMS
No. 17-1551V
ROBERT DAVID DUPUCH-CARRON and
ELIZABETH JOANNA CARRON, as the
legal representatives of the
estate of their minor son, A.R.D-C.,
Petitioners,
v.
SECRETARY OF HEALTH
AND HUMAN SERVICES,
Respondent.
April 23, 2019, Filed
PUBLISHED
Special Master Gowen
Eligibility for Compensation; “Person”; “Returned”.

51a
Appendix C
DECISION2
Robert David Dupuch-Carron and Elizabeth Joanna
Carron (“petitioners,” or “father” and mother”) are the
legal representatives of the estate of their minor son,
A.R.D-C. The family is domiciled in The Bahamas. Ms.
Carron carried A.R.D-C. in utero upon five visits to
the United States. On November 24, 2015, A.R.D-C.
was born in The Bahamas. On June 23, 2016, A.R.D-C.
received DTaP, IPV, HIB, HBV, Prevnar, and rotavirus
vaccines at his pediatrician’s office in The Bahamas. He
remained in The Bahamas until July 13, 2016, when he
was transported to the United States for treatment for
secondary hemophagocytic lymphohistiocytosis (“HLH”).
A.R.D-C. later developed secondary complications and
passed away in the United States on December 24, 2017.
On October 7, 2017, petitioners initiated a claim within
2. Pursuant to the E-Government Act of 2002, see 44 U.S.C.
§ 3501 note (2012), because this opinion contains a reasoned
explanation for the action in this case, I am required to post it on the
website of the United States Court of Federal Claims. The court’s
website is at http://www.uscfc.uscourts.gov/aggregator/sources/7.
This means the opinion will be available to anyone with access
to the Internet. Before the opinion is posted on the court’s website,
each party has 14 days to file a motion requesting redaction “of any
information furnished by that party: (1) that is a trade secret or
commercial or financial in substance and is privileged or confidential;
or (2) that includes medical files or similar files, the disclosure of
which would constitute a clearly unwarranted invasion of privacy.”
Vaccine Rule 18(b). An objecting party must provide the court with
a proposed redacted version of the opinion. Id. If neither party files
a motion for redaction within 14 days, the opinion will be posted
on the court’s website without any changes. Id.

52a
Appendix C
the National Vaccine Injury Compensation Program,
alleging that A.R.D-C.’s March 26, 2016 vaccines caused
his injuries and death. 3 Petition (ECF No. 1); see also
Amended Petition filed March 26, 2018 (ECF No. 15).
Ripe for adjudication is whether petitioners’ claim is
eligible under 42 U.S.C. § 300aa-11(c)(1)(B)(III), which
provides that the vaccination(s) at issue must be received
by a “person” who then “returns” to the United States
within six months. Petitioners contend that this threshold
eligibility requirement is fulfilled on the grounds (1) that
A.R.D-C. was a “person” upon entering the United States
while in utero and that (2) A.R.D-C. “returned” to the
United States within six months under a plain meaning
of that quoted word. Petitioners’ Motion for Summary
Judgment (“Pet. Mot.”) (ECF No. 11); Pet. Reply (ECF
No. 21); see also Pet. Exhibits (“Exs.”) 1-16. Respondent
challenges both contentions. Respondent’s Cross-Motion
for Summary Judgment (“Resp. Mot.”) (ECF No. 18).
After carefully analyzing and weighing all of the
evidence presented in this case in accordance with the
applicable legal standards, I hereby DENY petitioners’
motion for summary judgment and GRANT respondent’s
motion for summary judgment, finding that the petition
is not eligible under 42 U.S.C. § 300aa-11(c)(1)(B)(III).
Accordingly, petitioners may not proceed in seeking
compensation from this Program and their petition is
dismissed.
3. The Program comprises Part 2 of the National Childhood
Vaccine Injury Act of 1986, 42 U.S.C. §§ 300aa-10 et seq. (hereinafter
“the Vaccine Act” or “the Act”).

53a
Appendix C
I.

Summary of Relevant Facts4
A.

Family’s Connections to the United States

The Dupuch-Carron family — the father Mr. DupuchCarron, the mother Ms. Carron, the paternal grandmother
Ms. Eileen Dupuch-Carron, and A.R.D-C. during his life
— were domiciled in Nassau, The Bahamas. Additionally,
the grandmother, through a company established by her
parents, Sir Etienne Dupuch and Lady Marie Dupuch, also
owns a condominium in Coral Gables, Florida. Pet. Ex.
16 ¶ 5. She is a “frequent visito[r] to the United States,”
“spend[ing] 10 to 12 long weekends in the United States
a year.” Id. ¶ 4.
The father was born in the United States. Pet. Ex. 16
¶ 5. He recalls “spen[ding] a great deal of time here as a
child during the summer holidays with his grandparents.”
Id. Mr. Carron is a “frequent visitor to the United States,”
spending “between 30 and 45 days in the United States
on business” in a typical year. Id. ¶ 3.
The mother is a citizen of the United Kingdom and a
resident of The Bahamas. Pet. Ex. 11 at 7. Her pregnancy
with A.R.D-C. was confirmed by an internist in Coral
Gables, Florida during a visit to the United States from
March 24, 2015 to April 3, 2015. Pet. Ex. 11 at 12-22; Pet.
Ex. 10 ¶ 31. While pregnant, she made four additional
4. In order to reach this decision, I fully reviewed the entire
record. This section is a summary of the facts deemed most
relevant to the present limited issue: as a threshold matter, whether
petitioners are eligible to receive compensation from the Vaccine
Program.

54a
Appendix C
visits to the United States: from April 9, 2015 to April
11, 2015; from July 1, 2015 to July 3, 2015; from August
12, 2015 to August 14, 2015; and from September 18, 2015
to October 5, 2015. Pet. Ex. 11 at 12-22; Pet. Ex. 10 ¶ 31.
The father avers that “[B]efore [A.R.D-C.’s] illnesses and
death, [the mother] probably spent more time in the United
States than I.” Pet. Ex. 16 ¶ 4.
B. A.R.D-C.’s Early Life, Vaccines at Issue, and
Entry to the United States
A.R.D-C. was born on November 24, 2015, at Doctors
Hospital in Nassau, The Bahamas. Pet. Ex. 2. “During his
first six months,” A.R.D-C. lived with his mother, father,
and grandmother in Nassau, The Bahamas. Pet. Ex. 16
¶ 2.
A.R.D-C. had unremarkable well-child visits at
Precious Posterity Pediatric Centre in Nassau, The
Bahamas on November 30, 2015; December 22, 2015;
January 26, 2016; February 26, 2016; April 14, 2016; and
April 25, 2016. Pet. Ex. 3 at 2-12, 19.
On June 23, 2016, A.R.D-C. presented to the same
practice for his six-month well-baby visit. He received the
DTaP, IPV, HIB, HBV, Prevnar, and rotavirus vaccines
at issue in this case. Id. at 13-14, 19.
On July 7, 2016, and again July 9, 2016, the parents
brought A.R.D-C. to the same pediatric practice for
complaints of fever greater than 102 degrees Fahrenheit,
crankiness, stuffy nose, rattling in chest, occasional chesty
coughs, reduced activity, vomiting, and diarrhea. Id. at

55a
Appendix C
15-16. A.R.D-C. was assessed with “likely viral illness,
[rule out] sepsis” and discharged home with Cardec drops.
Id. at 16.
On July 10, 2016, the parents brought A.R.D-C. to
the emergency room at Doctors Hospital in Nassau, The
Bahamas for complaints of fever for five days, vomiting for
five days, irritability, and decreased appetite. Pet. Ex. 4 at
2. He was found to have thrombocytopenia,5 pancytopenia6
for which he was given a blood transfusion, and febrile
neutropenia for which he was given intravenous Zosyn,
an antibiotic.7 Pet. Ex. 4 at 4, 12; Pet. Ex. 5 at 7.
On July 11, 2016, A.R.D-C. was transferred to the
intensive care unit at Princess Margaret Hospital in
Nassau, The Bahamas. Pet. Ex. 5. Repeat bloodwork
showed worsened neutropenia. Id. at 7. He was diagnosed
with “febrile neutropenia with pancytopenia” with
the need to rule out leukemia, bacterial sepsis, and
viral infection. Id. A pediatric hematologist-oncologist
recommended that A.R.D-C. should be transferred to an
institution that was “equipped to enable quick turn around
and confirmation of the leukemia if present” and was able
to provide immunophenotyping, cytogenetic evaluation,
5. Thrombocy topenia is “a decrease in the number of
platelets.” Dorland’s Illustrated Medical Dictionary (32nd ed. 2012)
[hereinafter “Dorland’s”] at 1922.
6. Pancytopenia is “deficiency of all cellular components of the
blood.” Dorland’s at 1368.
7. Neutropenia is “an abnormal decrease in the number of
neutrophils in the blood.” Dorland’s at 1272.

56a
Appendix C
and reliable blood bank support. Id. Those capabilities
were “unavailable” or “limited” in The Bahamas. Id.
On July 12, 2016, The Bahamas issued a passport
to A.R.D-C. Pet. Ex. 11 at 3. That same day, the United
States granted him a visa. The purpose for entering the
United States was “medical.” Id. at 4-5.
On July 13, 2016, A.R.D-C. was transferred by
air ambulance to Nicklaus Children’s Hospital in
Miami, Florida, where his diagnosis was modified to
hemophagocytic lymphohistiocytosis (“HLH”). 8 He was
treated for that condition until discharge on August 12,
2016. Pet. Ex. 6 at 12-13.
The mother recalls that A.R.D-C. was discharged
“on the condition he remain in Florida as an outpatient.”
Pet. Ex. 10 ¶ 18. “Instead of traveling back home to
The Bahamas, we took up residence in our family’s
apartment in Coral Gables.” Id. A.R.D-C. continued to
see hematologist-oncologist Dr. Maggie Fader as an
outpatient of Miami Children’s Hospital on a weekly basis.
Id. ¶ 19. The family was “finally given permission to leave
the USA on Christmas Eve 2016 provided [they] come
back to Miami Children’s Hospital for monthly visits to
Dr. Maggie Fader.” Id. A.R.D-C. was able to return briefly
to The Bahamas from December 24, 2016 to January 24,
8. Hemophagocytic lymphohistiocytosis is “any of several closely
related disorders involving both lymphocytosis and histiocytosis,
with excessive hemophagocytosis in the lymphoreticular system
or the central nervous system; they are usually seen in children
secondary to infection and are often fatal; they can also be secondary
to rheumatologic or other conditions or can be familial.” Dorland’s
at 1085.

57a
Appendix C
2017, and again from January 29, 2017 to February 20,
2017. Pet. Mot. Memorandum (“Mem.”) at 3.
A.R.D-C. spent the remaining ten months of his
life in the United States in connection with his medical
treatment. On February 28, 2017, he was readmitted to
Nicklaus Children’s Hospital in Florida due to a rash
that had spread over his body which was diagnosed as
myeloid sarcoma. Pet. Ex. 7 at 6; Pet. Ex. 10 at ¶ 21.
A.R.D-C. underwent a bone marrow aspiration and was
diagnosed with treatment-related acute myeloid leukemia.
See Pet. Ex. 7; Pet. Ex. 10 at ¶ 22. A.R.D-C. underwent
further treatment, including chemotherapy and radiation,
primarily at Miami Children’s. He was also evaluated at
Cincinnati Children’s Hospital in Ohio and underwent
extensive treatment including a bone marrow transplant
at Johns Hopkins Bloomberg Children’s Hospital in
Maryland. Pet. Ex. 10 at ¶ 26. Sadly, on December 24,
2017, A.R.D-C. died from treatment-related acute myeloid
leukemia at Johns Hopkins. Pet. Ex. 15.
II. DISCUSSION
A.

Introduction

The threshold issue to be resolved is whether A.R.D-C.
can be deemed to have “returned” to the United States
within six months after receiving the vaccines giving rise
to this claim, pursuant to 42 U.S.C. § 300aa-11(c)(1)(B)
(III), as required to be eligible to receive compensation
under the Vaccine Act.

58a
Appendix C
The Vaccine Act was established to compensate
vaccine-related injuries and deaths. 42 U.S.C. §300aa10(a). “Congress designed the Vaccine Program to
supplement the state law civil tort system as a simple, fair
and expeditious means for compensating vaccine-related
injured persons. The Program was established to award
‘vaccine-injured persons quickly, easily, and with certainty
and generosity.’” Rooks v. Sec’y of Health & Human Servs.,
35 Fed. Cl. 1, 7 (1996) (quoting H.R. Rept. No. 99-908,
99th Cong., 2d Sess. at 3 (reprinted in 1986 U.S.C.C.A.N.
at 6287, 6344)).
The Vaccine Act provides that a “person” is eligible
to seek compensation in the Program upon establishing
certain requirements including receipt of a vaccine
listed on the Vaccine Injury Table and the showing of a
sufficiently severe injury. Additionally, the person must
establish that he or she:
(I) received the vaccine in the United States or
its trust territories,
(II) received the vaccine outside the United
States or a trust territory and at the time of
the vaccination such person was a citizen of the
United States serving abroad as a member of
the Armed Forces or otherwise as an employee
of the United States or a dependent of such a
citizen, or
(III) received the vaccine outside the United
States or a trust territory and the vaccine

59a
Appendix C
was manufactured by a vaccine manufacturer
located in the United States and such person
returned to the United States not later than 6
months after the date of the vaccination.
42 U.S.C. § 300aa-11(c)(1)(B) (emphasis added).
The Federal Circuit described the various subsections
of 42 U.S.C. § 300aa-11 as “gate-keeping” provisions.
Amendola v. Sec’y of Health & Human Servs., 989 F.2d
1180, 1182 (Fed. Cir. 1993). If a petitioner is unable to
satisfy the requirements of these gatekeeping provisions,
“any injury caused by [the vaccine’s] administration is not
compensable, and the injured party has no cognizable
claim under the Vaccine Act.” Scanlon v. Sec’y of Health
& Human Servs., 114 Fed. Cl. 135, 141 (2013).
It is clear that that A.R.D-C. did not receive
the vaccines at issue in the United States or its
trust territories, as required to be eligible to receive
compensation under subsection (I). It is also clear that
he received the vaccines outside the United States and its
trust territories, however, there is no evidence that he is
a dependent of a United States citizen who was serving
abroad as a member of the Armed Forces or otherwise
as an employee of the United States.
The only remaining subsection is (III). There is no
dispute that the vaccines at issue were made by “vaccine
manufacturer[s] located in the United States” and that
they were administered to A.R.D-C. outside of the
United States. Pet. Exs. 12-14; Pet. Mot. Mem. at 5-8;

60a
Appendix C
Resp. Mot. at 4. It is undisputed that A.R.D-C. came to
the United States for medical treatment twenty (20) days
after receiving the vaccines at issue. However, A.R.D-C.’s
eligibility to seek compensation under this subsection
remains to be determined. First, it refers to a “person.”
This raises the question of whether under the Act’s
meaning, A.R.D-C. was a “person” when he was carried
in utero to the United States. After his birth, he did not
enter the United States until after the vaccinations when
he entered for medical treatment. Additionally, even if it
is accepted that A.R.D-C. was a “person” while in utero,
the further question is whether he “returned” under the
Vaccine Act.
B. “Such person returned to the United States”
Petitioners argue that A.R.D-C. returned to the
United States after his vaccinations because he previously
entered the country five times while in utero. “As a matter
of law, a child who is in utero is a person for the purposes
of the National Vaccine Injury Compensation Program.”
Pet. Mot. Mem. at 13, citing Rooks, 35 Fed. Cl. 1 (holding
that a vaccination given to a pregnant woman can be
“received” by a child in utero); Burch v. Sec’y of Health
& Human Servs., No. 99-946V, 2010 U.S. Claims LEXIS
154, 2010 WL 1676767 (Fed. Cl. Spec. Mstr. April 9, 2010)
(same); Melton v. Sec’y of Health & Human Servs., No. 01105V, 2002 U.S. Claims LEXIS 21, 2002 WL 229781 (Fed.
Cl. Spec. Mstr. Jan. 25, 2002) (same). In 2016, Congress
expressly amended the Vaccine Act to recognize this
principle:
(11) Petitions for Compensation...

61a
Appendix C
(f) Maternal immunization.
(1) Notwithstanding any other provision of law,
for the purposes of this subpart, both a woman
who received a covered vaccine while pregnant
and any child who was in utero at the time such
woman received the vaccine shall be considered
persons to whom the covered vaccine was
administered and persons who received the
covered vaccine.
(2) Definition. As used in this subsection, the
term “child” shall have the meaning given that
term by subsections (a) and (b) of Section 8 of
Title 1...
42 U.S.C. § 300aa-119 (emphasis added), cited in Pet. Mot.
Mem. at 13.
“Child” is defined:
(a) In determining the meaning of any Act
of Congress, or of any ruling, regulation, or
interpretation of the various administrative
9. As amended by the wide-ranging 21st Century Cures Act,
P.L. 114-255, December 13, 2016, 130 Stat. 1033. The 21st Century
Cures Act also amended the Vaccine Injury Table “to include vaccines
recommended by the Centers for Disease Control and Prevention
for routine administration in pregnant women” and amended the
Vaccine Act to provide that “A covered vaccine administered to a
pregnant woman shall constitute more than one administration, one
to the mother and one to each child... who was in utero at the time
such woman was administered the vaccine.” Id.

62a
Appendix C
bureaus and agencies of the United States, the
words “person”, “human being”, “child”, and
“individual”, shall include every infant member
of the species homo sapiens who is born alive at
any stage of development.
(b) As used in this section, the term “born
alive”, with respect to a member of the species
homo sapiens, means the complete expulsion
or extraction from his or her mother of that
member, at any stage of development, who after
such expulsion or extraction breathes or has a
beating heart, pulsation of the umbilical cord,
or definite movement of voluntary muscles,
regardless of whether the umbilical cord
has been cut, and regardless of whether the
expulsion or extraction occurs as a result of
natural or induced labor, cesarean section, or
induced abortion. (c) Nothing in this section
shall be construed to affirm, deny, expand,
or contract any legal status or legal right
applicable to any member of the species homo
sapiens at any point prior to being “born alive”
as defined in this section.
1 U.S.C. § 8.
Respondent contends that the recent maternal
immunization amendment to the Vaccine Act establishes
that a child in utero can “receive” a vaccine but it does
not establish that the child in utero was “present” in the
United States for purposes of a later “return.” Resp. Mot.

63a
Appendix C
at 5, n. 4. In this case, respondent argues that the mother’s
entries into the United States while pregnant do not
mean that A.R.D-C. was “present” in the United States
prior to birth. Furthermore, A.R.D-C. was not present
in the United States at any time between his birth and
his vaccinations. His first entry into the United States
was after he was born in The Bahamas and received the
vaccines at issue in The Bahamas, for treatment of his
post-vaccination injury on July 13, 2016. “As a matter of
logic,” that post-vaccination entry into the United States
cannot constitute a “return.” Resp. Mot. at 5; id., n. 4.10
I agree with respondent. Congress did expressly
amend the Vaccine Act to permit a cause of action alleging
that a child was injured by transplacental exposure to
a vaccine administered to his or her mother (but only
after that child was born alive). This cause of action was
previously in question and not expressly recognized
under the Act. See, e.g., Rooks, 35 Fed. Cl. 1; Burch, 2010
U.S. Claims LEXIS 154, 2010 WL 1676767; Melton, 2002
U.S. Claims LEXIS 21, 2002 WL 229781 (all analyzing
this issue). However, this amendment did not change the
definition of child or person under any other sections of
the law — such as the section requiring that a “person”
10. Strangely, petitioners’ reply provides: “Respondent
apparently concedes that these [in utero] visits establish [A.R.D-C.’s]
‘entry’ into the United States and ‘presence’ in the United States as
a visitor.” Pet. Resp. at 11 (emphasis added, citing Resp. Mot. at 5
and id., n. 4. This does not seem correct. My understanding is that
respondent does not accept that the visits to the United States while
A.R.D-C. was in utero count for determining whether A.R.D-C.
could later “return.”

64a
Appendix C
“return” to the United States to be eligible to file a claim.
Congress did not amend the Vaccine Act to expand
who constitutes a person who can be deemed a person
for purposes for later “return” to the United States.
Additionally, the applicable definition of “person” specifies
that it shall not be construed to “affirm, deny, expand, or
contract any legal status or legal right applicable to any
member of the species homo sapiens at any point prior
to being ‘born alive’ as defined therein.” 1 U.S.C. § 8. If
Congress wished to amend that section of the Act, it could
have done so. Without express expansion by Congress, the
Court is not inclined to make that finding. As such, the
amendment to the Vaccine Act does not appear to establish
that a pregnant woman’s presence in the United States
creates a separate presence of the fetus in the United
States before birth.
In this case, A.R.D-C., while living and breathing
outside of his mother’s body, was never present in the
United States before his vaccinations or the onset of his
severe illness which necessitated his subsequent entry
for medical treatment. Thus, his entrance to the United
States, while within six months after the vaccinations at
issue, cannot be construed as a “return.”

65a
Appendix C
C.

“Such person returned to the United States”

Even if A.R.D-C. is recognized as a “person” who
was present in the United States before vaccination, the
parties still disagree whether A.R.D-C. did “return to the
United States not later than six months after the date of
vaccination.” § 300aa-11(c)(1)(B)(III).
“Return” is not defined in the Vaccine Act. Petitioners
argue that the analysis should start and end with the
plain meaning. They cite the Supreme Court’s decision
in Sebelius v. Cloer for the proposition that: “As in any
statutory interpretation case, [the Court starts,] of
course, with the statutory text, and proceeding from the
understanding that unless otherwise defined, statutory
terms are generally interpreted in accordance with their
ordinary meaning.” Sebelius v. Cloer, 569 U.S. 369, 376,
133 S. Ct. 1886, 185 L. Ed. 2d 1003 (2013) (analyzing the
ordinary meaning of “filed” in the Vaccine Act). Petitioners
argue that similarly, here, the “common, ordinary, and
accepted meaning” of “return” should be applied. Pet.
Mot. Mem. at 8-9, citing Cloer, 569 U.S. at 376-80; Nuttall
v. Sec’y of Health & Human Servs., No. 7-810V, 2015
U.S. Claims LEXIS 117, 2015 WL 691272, *10 (Fed. Cl.
Spec. Mstr. Jan. 20, 2015); Waddell v. Sec’y of Health &
Human Servs., No. 10-316V, 2012 U.S. Claims LEXIS
1237, 2012 WL 5504421, *8 (Fed. Cl. Spec. Mstr. Sept.
19, 2012). Petitioners cite several dictionary definitions
which provide that “return” means simply to “go back” to
a place or person. Pet. Mot. Mem. at 9 (internal citations
omitted). Neither respondent or this Court has located
alternative definitions for the word “return.”

66a
Appendix C
However, those definitions submitted by petitioners
are still non-specific. “Return” is used in a variety of
contexts and the sense of permanence depends on the
subject of the return. Here, the Vaccine Act’s requirement
that a person “returned to the United States” might be
understood to be limited to scenarios such as where a
person who previously lived in the United States was
travelling or working for a limited period of time in a
foreign country, where he or she received a vaccine, then
“returned” to the United States intending to remain
indefinitely. But if “return” is read more broadly, a person
who entered the United States once for any length of time
and for any purpose (such as tourism, visiting family,
medical treatment, or business) returned to his or her
country of residence where he or she received a vaccine,
and who entered the United States again for any length
of time and for any purpose within six months of the
vaccination could be deemed to “return” and therefore
be eligible to file a petition under the Vaccine Act. This
reading seems overly broad.
In this sense, the meaning of “return” is ambiguous.
See McGowan v. Sec’y of Health & Human Servs., No.
90-2446V, 1994 WL 879451 (Fed. Cl. Spec. Mstr. May 10,
1994), mot. for rev. denied, 31 Fed. Cl. 734, 738 (1994)
(reasoning that dictionary definitions “shed little light”
and “[s]ince the word “return” relies on its context in order
to impart a sense of permanence, the plain meaning rule
is not dispositive”)11; Sutherland Statutes and Statutory
11. Both parties note that McGowan is the only case analyzing
the requirement that a person “return to the United States not later
than six months after the date of vaccination” under Vaccine Act

67a
Appendix C
Construction (7th ed. 2018) (hereinafter “Sutherland’s”)
at § 45:2, The problem of ambiguity (“Modern courts
typically frame the issue by stating that ambiguity
exists when a statute is capable of being understood by
reasonably well-informed persons in two or more different
senses.”).
In Cloer, the Supreme Court noted that where the
words of the Vaccine Act are “unambiguous,” the plain
Section 11(c)(1)(B)(III). Pet. Mot. Mem. at 9-11; Resp. Mot. at 5-8;
Pet. Resp. at 9-10. McGowan concerned a child who was born in the
United States in 1964, then moved to Canada where her father was
undergoing medical training. While in Canada, she received a measles
vaccination and developed convulsions. The child continued to live in
Canada apart from intermittent trips to visit her grandparents who
were living in the United States — including at least one trip within
six months of the vaccination at issue. The child and her parents did
not return to live permanently in the United States until over two
years after the vaccination, in 1967. The special master dismissed the
claim and the Court of Federal Claims affirmed, both holding that
the word “returned” was not addressed in the legislative history but
was limited to persons who had previously lived in the United States
and returned within six months of vaccination with the intention to
remain permanently from that point on. See 31 Fed. Cl. at 734-740.
Of course, opinions of special masters and the U.S. Court of
Federal Claims constitute persuasive but not binding authority.
Hanlon v. Sec’y of Health & Human Servs., 40 Fed. Cl. 625, 630
(1998). By contrast, Federal Circuit rulings concerning legal issues
are binding on special masters. Guillory v. United States, 59 Fed.
Cl. 121, 124 (2003), aff’d, 104 F. App’x 712 (Fed. Cir. 2004); see also
Spooner v. Sec’y of Health & Human Servs., No. 13-159V, 2014 U.S.
Claims LEXIS 73, 2014 WL 504728, at *7 n.12 (Fed. Cl. Spec. Mstr.
Jan. 16, 2014).

68a
Appendix C
meaning governs. However, where there is more than
one meaning, certain canons and policy arguments come
into play. 569 U.S. at 380-81. As noted by respondent, the
Vaccine Act is a limited waiver of sovereign immunity
which should be given a “strict and narrow construction.”
Any ambiguity must be construed “in favor of the
sovereign.” Holihan v. Sec’y of Health & Human Servs.,
45 Fed. Cl. 205, 207 (1999), cited in Resp. Mot. at 8
While interpretation of statutory text, including the
Vaccine Act, should begin with the plain meaning it should
not produce absurd results. Cloer, 133 S. Ct. at 1894, n. 4;
see also Hellebrand v. Sec’y of Health & Human Servs.,
999 F.2d 1565, 1570-71 (Fed. Cir. 1993); McGowan, 31 Fed.
Cl. at 739 (“To rule that ‘return’ means simply to physically
enter the United States is to invite absurd scenarios”).
As respondent notes, a court does “not construe
statutes in a vacuum, and ‘the words of a statute must
be read in their context and with a view to their place
in the overall statutory scheme.’” Resp. Mot. at 7, citing
Colonial Press Int’l v. U.S., 788 F.3d 1350, 1356 (Fed.
Cir. 2015) (quoting Davis v. Mich. Dep’t of Treasury, 489
U.S. 803, 809, 109 S. Ct. 1500, 103 L. Ed. 2d 891 (1989)).
When interpreting a statute, a court is “not guided by a
single sentence or number of sentences but look[s] to the
provisions of the whole law, and to its object and policy.”
Resp. Mot. at 7, citing Dole v. United Steelworkers of Am.,
494 U.S. 26, 34, 110 S. Ct. 929, 108 L. Ed. 2d 23 (1990).
Congress had two main goals upon passing the
Vaccine Act. The first was to stabilize the national

69a
Appendix C
vaccine market. Cloer, 569 U.S. at 372 (stating that the
Act was passed in response to an increase in vaccinerelated tort litigation); Bruesewitz v. Wyeth LLC, 562
U.S. 223, 228-29, 131 S. Ct. 1068, 179 L. Ed. 2d 1 (2011)
(recounting that an increasing number of vaccine product
liability suits, associated with the withdrawal of several
manufacturers and vaccine shortages within the United
States) (internal citations omitted); McGowan, 31 Fed.
Cl. at 738-39. Petitioners assert that: “A person who
is [allegedly] injured by a vaccine manufactured by ‘a
vaccine manufacturer located in the United States’ can
sue the manufacturer in a traditional negligence or
product liability action in the country where the vaccine
was administered.” Pet. Resp. at 8. “Such suits would
create the same kind of expenses, liability concerns, and
disruption of the vaccine market as those arising from
vaccinations administered in the United States.” Id.
Bringing “some of those cases,” those filed by prior visitors
to the United States who enter again within six months,
would “protect vaccine manufacturers located in the
United States from vaccine-injury liability and stabilize
the vaccine market.” Id. Congress undisputedly intended
to reduce liability for those manufacturers. However,
if Congress wished to provide such broad immunity as
argued by the petitioners, it is hard to see why Congress
disallowed claims by persons who never entered the
United States or entered the United States at some point
before vaccination but did not return again within six
months. Congress only made eligible those persons who
had previously entered the United States and entered
again within six months after vaccination. It seems more
likely that Congress, in enacting this section, intended

70a
Appendix C
to provide protection for persons who were temporarily
away from the United States but who returned within six
months after vaccination with an intent to stay.12
Congress’s second expressed goal was to compensate
individuals suffering injury following vaccination. Cloer,
569 U.S. at 372 (“Congress enacted the NVCIA to...
expedite compensation to injured parties”); Bruesewitz,
562 U.S. at 226 -29 (“to facilitate compensation”);
McGowan, 31 Fed. Cl. at 738 (“to “offer fair compensation
to victims”). In the legislative history, Congress specifically
noted that vaccination programs are facilitated by state
and local distribution of vaccines. Additionally, at the time
of the Act’s passage, state laws mandated that “virtually
all” children be vaccinated “as a condition for entering
12. A further limitation is found in how the Vaccine Program is
funded. Upon passing the Vaccine Act, Congress decided that it would
be funded by an excise tax on the vaccines covered. Originally, taxes
were set at different rates to reflect “the currently accepted views
regarding the relative reactogenicity of [different] vaccines.” The
number of doses of each vaccine distributed in the United States was
used to estimate the revenues generated per year. H.R. 99-908 at *34.
In 1997, the funding scheme changed to a uniform tax of seventy-five
cents ($0.75) levied on “any taxable vaccine sold by the manufacturer,
producer, or importer thereof.” 26 U.S.C. § 4131; I.R.C. § 4131. “The
manufacturer is liable for the tax,” which “attaches when the title to
the article sold passes from the manufacturer to the buyer.” However,
an exemption applies for sale or resale “for export ... to a foreign
country.” See also Internal Revenue Service, Publication 510: Excise
Taxes (rev. Mar. 2018), available at http://www.irs.gov/publications/
p510. Manufacturers do not pay the excise tax on vaccines exported
for use outside of the United States, suggesting that claims for those
vaccines should not be liberally accepted.

71a
Appendix C
school.” H.R. Rep. No. 99-908 at *4-7.13 The legislative
history is generally focused on public health within the
United States.
Petitioners characterize this purpose of compensation
broadly as “humanitarian.” 14 Pet. Resp. at 7. This
interpretation is overly broad. Congress did not evince
any concern about persons possibly injured by vaccines
outside of and without any connection to the United
States and it is doubtful that the United States or any
state or local government would have authority to impose
vaccination requirements outside of its own borders (with
the exception of persons applying to immigrate to the
United States).
Petitioners also argue that this “humanitarian”
purpose would also be served by allowing claims by
“repeat visitors” to the United States, particularly those
13. While the legislative history addresses primarily programs
and laws requiring vaccination of children, states also require
vaccination of certain adults such as employees in healthcare
facilities in the United States. See Centers for Disease Control and
Prevention, Vaccination Laws, available at https://www.cdc.gov/
phlp/publications/topic/vaccinationlaws.html (last accessed April
12, 2019).
14. See e.g., Oxford Dictionary, https://en.oxforddictionaries.
com/definition/humanitarian (humanitarian (adj.): “concerned with
or seeking to promote human welfare... denoting an event or situation
which causes or involves widespread human suffering, especially one
which requires the large-scale provision of aid’); Oxford Advanced
Learner’s Dictionary at https://www.oxfordlearnersdictionaries.
com/us/definition/english/humanitarian 2 (“concerned with reducing
suffering and improving the conditions that people live in”).

72a
Appendix C
reentering the United States for medical treatment
because “a Program award lessens the financial burden
on the vaccine-injure person and their family.” Pet. Resp.
at 7. It is true that the Program compensates eligible
petitioners for unreimbursed expenses. However, a not
insignificant number of people come from other countries
to the United States for more sophisticated medical care,
as in this case. See Pet. Ex. 5 at 7 (recommending that
A.R.D-C. be transferred from a hospital in The Bahamas
to another institution that was better equipped to diagnose
and treat his condition). There is no indication that
Congress would permit compensation to persons coming
to the United States for medical treatment, but only if
they had entered this country prior to vaccination and
returned within six months.
Related to this same goal, petitioners argue that
allowing claims by “repeat visitors” who seek treatment
in the United States “also lessens the financial burden
on [the] healthcare provider[s]” therein. Pet. Resp. at
7-8. However, this argument is unavailing because for
the majority of healthcare services, the providers are not
paid by individuals, but by private insurance companies
as well as federal and state health benefits programs.
The Vaccine Program is a secondary payer of medical
expenses. It is not subject to liens from private insurance
carriers or federal medical insurance programs such as
Medicare — but only subject to liens from state Medicaid
programs. § 300aa-15(g) - (h).
In addition to the goals of stabilizing the vaccine
market and compensating for post-vaccination injuries,
Congress also recognized that the federal government

73a
Appendix C
has historically had the “responsibility to prevent the
spread of infectious diseases from other countries into
the United States and between States within its own
borders.” H.R. Rep. 99-908 at 5; see also Griffin v. Sec’y
of Health & Human Servs., No. 13-280V, 2014 U.S.
Claims LEXIS 271, 2013 WL 1653427, *7 (Fed. Cl. Spec.
Mstr. April 4, 2014) (connecting this goal to the Vaccine
Act’s provisions making eligible United States citizens
who are vaccinated while serving abroad in the military
or otherwise employed by the United States, and the
provision regarding persons receiving vaccinations and
then “return[ing]” within six months), mot. for rev. denied,
124 Fed. Cl. 101 (2014), aff’d, 602 Fed. App’x 528 (Fed. Cir.
2015). Petitioners argue that “repeat visitor[s]” present a
“special risk” of bringing infectious diseases from foreign
countries to the United States and making them eligible
for this program would encourage them to get vaccinated.
Pet. Resp. at 9. However, any visitor who is not vaccinated
might potentially spread infectious disease, on either a
first or repeat entry into the United States. It is illogical
to suggest that Congress recognized this issue but decided
to tolerate first-time entries by unvaccinated visitors but
encourage vaccination for repeat visitors.15
15. Outside of the Vaccine Act, Congress actually draws a
distinction between foreign nationals entering the United States
permanently versus temporarily. In 1996, Congress amended the
Immigration and Nationality Act to provide that foreign nationals
applying for immigrant visas abroad or seeking to adjust to
permanent residency status while in the United States are required
to provide proof of vaccinations recommended for the general United
States population by the Secretary of Health and Human Services.
Failure to provide this proof is cause for exclusion from admission
into the United States. 8 U.S.C. § 1182(a)(1)(A)(ii) (as amended
Sept. 30, 1996); see also U.S. Citizenship and Immigration Services,

74a
Appendix C
The statutory language at issue in this case is
admittedly puzzling and is not explained in the legislative
history. In my view, it most reasonably can be read to
address persons who reside in the United States, who
receive vaccinations while living or working abroad, and
then return within six months. Such persons might receive
the vaccinations with knowledge of the United States’
public health initiatives and laws regarding vaccination.
Congress’s use of the word “person” rather than “citizen”
in this section (and throughout the Vaccine Act generally)
evinces an intent to liberally include persons who are
expected to be present in the United States apart from a
temporary absence and to benefit domestic public health.16
Vaccination Requirements, https://www.uscis.gov/news/questionsand-answers/vaccination-requirements (last accessed April 19, 2019);
U.S. Department of State, Vaccinations — Important Notice to
Immigrant Visa Applicants Concerning Vaccination Requirements,
https://travel.state.gov/content/travel/en/us-visas/immigrate/
vaccinations.html (last accessed April 19, 2019). In contrast, foreign
nationals visiting the United States temporarily for business or
pleasure are excluded from the definition of “immigrant” and not
subject to these vaccination requirements. 8 U.S.C. § 1101(a)(15)(B).
Such persons apply instead for non-permanent visas for business (B1), pleasure (B-2), or a combination of both (B-1/B-2). “Pleasure” is
defined as “legitimate activities of a recreational character including
tourism, amusement, visits with friends or relatives, rest, medical
treatment, and activities of a fraternal, social, or service nature.” 22
C.F.R. § 41.31(b)(1) (2006) (emphasis added). In this case, A.R.D-C.
was issued a B-1/B-2 visa to enter the United States for the first time
on January 12, 2017, shortly before entering the United States for
more advanced medical treatment. Pet. Ex. 11 at 5.

16. But see 42 U.S.C. § 300aa-11(c)(1)(B)(II) (permitting a claim
for a vaccine received abroad by a United States “citizen” while
serving in the Armed Forces or otherwise employed by the United
States, without a return requirement).

75a
Appendix C
In this case, there is no evidence of intent for A.R.D-C.
to live in the United States. His paternal grandmother,
father, and mother’s established primary place of residence
was in The Bahamas. While the paternal grandmother
owned a residential property in the United States, that
was only a destination for periodic “visits.” Pet. Exs. 10,
16. Petitioners aver that A.R.D-C., as well, would “likely...
have been a frequent visitor to the United States had he
not died as a result of his vaccine-related illnesses.” Pet.
Resp. at 12. While this may be true, A.R.D-C.’s entire first
year of life was spent in The Bahamas and there is little
doubt that the family was domiciled there.
He received the vaccines at issue as part of his
pediatric care in The Bahamas, and not related to any visa
application or other vaccination program administered by
the United States. While he was only a year old when he
received the vaccines at issue and he was his parents’ first
child, the record does not suggest that they were applying
for daycare or school in the United States. Additionally,
when A.R.D-C. was issued a temporary visa for the first
time, it did not require proof of vaccination.
That visa was to enter the United States in order to
obtain more sophisticated medical treatment. Additionally,
that entry was never intended to be permanent. The
parents expressed a desire to go “home” to The Bahamas.
See Pet. Ex. 10 ¶ ¶ 18-19 (the mother’s recollection that
they were not permitted to “trave[l] back home to The
Bahamas,” until they were “finally given permission to
leave the USA... provided [they] come back to Miami
Children’s Hospital for monthly visits”); Pet. Mot. Mem.

76a
Appendix C
at 3 (stating that A.R.D-C. was only able to “return briefly
to The Bahamas” two times before he passed away in the
United States). Thus, his entry to the United States for
medical treatment, although it was effectively permanent,
cannot be construed as a “return.”
III.

CONCLUSION

I express my deep personal sympathy and condolences
to this family for the tragic loss of their child, regardless
of possible causation by the vaccines he received. However,
they are not eligible to seek compensation from the
Vaccine Program. First, A.R.D-C. cannot be viewed to
be a “person” who was present in the United States prior
to his vaccinations.
Second, even if A.R.D-C. was viewed to be a person
upon being carried in utero into the United States, there
is not sufficient evidence that he would have “returned”
within six months, as that word is construed to mean
under the Vaccine Act, apart from the need for more
sophisticated medical care that was not available in his
home country of The Bahamas. While A.R.D-C. may have
temporarily visited the United States, like his parents,
there is no evidence that he would have established a
permanent presence in this country. Interpreting “return”
more broadly to encompass this claim would run too far
afield of Congress’s intent to create a “national” program.
Accordingly, the petition must be DISMISSED.

77a
Appendix C
In the absence of a motion for review filed pursuant
to RCFC Appendix B, the Clerk of the Court shall enter
judgment in accordance herewith.17
IT IS SO ORDERED.
/s/ Thomas L. Gowen
Thomas L. Gowen
Special Master

17. Entry of judgment is expedited by each party’s filing notice
renouncing the right to seek review. Vaccine Rule 11(a).

78a
APPENDIX D —Appendix
DENIALDOF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, DATED
NOVEMBER 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-1137
ROBERT DAVID DUPUCH-CARRON,
ELIZABETH JOANNA CARRON, AS THE LEGAL
REPRESENTATIVES OF THEIR
MINOR SON, A. R. D-C.,
Petitioners-Appellants,
v.
SECRETARY OF HEALTH
AND HUMAN SERVICES,
Respondent-Appellee.
Appeal from the United States Court of Federal Claims
in No. 1:17-vv-01551-RAH, Judge Richard A. Hertling.
ON PETITIONS FOR PANEL REHEARING
AND REHEARING EN BANC
Before P ro s t , Chief Judge, Ne w m a n , L ou r i e ,
Clevenger,* Dyk, Moore, O’M alley, Reyna, Wallach,
Taranto, Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam.
* Circuit Judge Clevenger participated only in the decision
on the petitions for panel rehearing.

79a
Appendix D
ORDER
Appellant Elizabeth Joanna Carron filed a petition
for rehearing en banc. Appellant Robert David DupuchCarron separately filed a combined petition for panel
rehearing and rehearing en banc. The petitions were
referred to the panel that heard the appeal, and thereafter
the petitions for rehearing en banc were referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on November 30,
2020.
					For the Court
November 19, 2020		 /s/ Peter R. Marksteiner
Date			
Peter R. Marksteiner
					Clerk of the Court

